<html>
<title> - TRANSFORMING THE U.S. MILITARY'S FOREIGN LANGUAGE, CULTURAL AWARENESS, AND REGIONAL EXPERTISE CAPABILITIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 110-171]

                    TRANSFORMING THE U.S. MILITARY'S

                       FOREIGN LANGUAGE, CULTURAL

             AWARENESS, AND REGIONAL EXPERTISE CAPABILITIES

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 10, 2008



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 



                  U.S. GOVERNMENT PRINTING OFFICE
45-596                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          ROSCOE G. BARTLETT, Maryland
ELLEN O. TAUSCHER, California        WALTER B. JONES, North Carolina
ROBERT ANDREWS, New Jersey           JEFF MILLER, Florida
SUSAN A. DAVIS, California           PHIL GINGREY, Georgia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
               Suzanne McKenna, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                    Sasha Rogers, Research Assistant
















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Wednesday, September 10, 2008, Transforming the U.S. Military's 
  Foreign Language, Cultural Awareness, and Regional Expertise 
  Capabilities...................................................     1

Appendix:

Wednesday, September 10, 2008....................................    31
                              ----------                              

                     WEDNESDAY, SEPTEMBER 10, 2008
TRANSFORMING THE U.S. MILITARY'S FOREIGN LANGUAGE, CULTURAL AWARENESS, 
                  AND REGIONAL EXPERTISE CAPABILITIES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............     3
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1

                               WITNESSES

Longo, Brig. Gen. Richard C., USA, Director of Training, Office 
  of the Deputy Chief of Staff, G-3/5/7, U.S. Army; Joseph M. 
  McDade, Jr., Director of Force Development, Deputy Chief of 
  Staff for Manpower and Personnel, U.S. Air Force; Rear Adm. 
  Daniel P. Holloway, USN, Director, Military Personnel Plans and 
  Policy Division (OPNAV N13), U.S. Navy; Brig. Gen. Richard M. 
  Lake, USMC, Director of Intelligence, U.S. Marine Corps; Brig. 
  Gen. Gary S. Patton, USA, Senior Language Authority, Office of 
  the Chairman, Joint Chiefs of Staff/J-1; Gail H. McGinn, Deputy 
  Under Secretary of Defense for Plans, Office of the Under 
  Secretary of Defense for Personnel and Readiness, beginning on 
  page...........................................................     4

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    38
    Holloway, Rear Adm. Daniel P.................................    63
    Lake, Brig. Gen. Richard M...................................    75
    Longo, Brig. Gen. Richard C..................................    40
    McDade, Joseph M., Jr........................................    51
    McGinn, Gail H...............................................    99
    Patton, Brig. Gen. Gary S....................................    93
    Snyder, Hon. Vic.............................................    35

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Dr. Snyder...................................................   127

 
TRANSFORMING THE U.S. MILITARY'S FOREIGN LANGUAGE, CULTURAL AWARENESS, 
                  AND REGIONAL EXPERTISE CAPABILITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                     Washington, DC, Wednesday, September 10, 2008.
    The subcommittee met, pursuant to call, at 2:30 p.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. Good afternoon. And welcome to the Subcommittee 
on Oversight and Investigations hearing on ``Transforming the 
United States Military's Foreign Language Skills and Cultural 
Awareness.'' And we are also throwing in the phrase ``Regional 
Expertise Capabilities,'' although our initial interest in this 
was language skills and cultural awareness.
    To address today's strategic and operational environments, 
the Department is training and equipping our military force not 
only in conventional combat skills but also in the skills 
needed to conduct missions across the full spectrum of 
operations. Those missions include fighting terror, conducting 
counterinsurgency, building partnership capacity in foreign 
countries, carrying out stability operations and humanitarian 
relief, and building coalitions. All these missions highlight 
the need for greater foreign language proficiency, cultural 
awareness and regional expertise.
    A year ago, Deputy Secretary England identified 
strengthening cultural awareness and language skills as one of 
the Department's top 25 transformation priorities to be 
completed or substantially advanced before the end of the 
current administration. The Department reports that it has made 
significant improvements and has completed a substantial 
portion of the Defense Language Transformation Roadmap, but 
there is still more to do.
    The subcommittee met in a private session with Dr. David 
Chu, the Under Secretary of Defense for Personnel and 
Readiness, earlier this summer to discuss the progress that has 
been made and the challenges that remain, and he was very 
helpful. Dr. Chu articulated the Department's goal is 
developing a culturally sensitive force that can communicate 
worldwide at the strategic and tactical levels. He said, in his 
view, the Department also needed to create a system that 
produces senior officers who can communicate U.S. policies and 
aims to non-English-speaking populations in their own language 
and that those senior officers should be able to directly 
communicate with the local media and interact with their 
foreign policy establishment.
    Among the challenges that remain, Dr. Chu said that more 
work needs to be done to better identify what are our specific 
language, culture and regional expertise requirements. We can 
all agree that some level of foreign language skills, cultural 
awareness and regional expertise is important for today's 
military, but figuring out the optimal levels of proficiency 
and how we distribute those capabilities throughout the force 
is challenging.
    I hope our witnesses today will help us address: one, what 
our overarching vision and goals are, particularly with respect 
to the general purpose forces; and two, how we can take that 
abstract vision and translate it into operational requirements 
expressed in terms of proficiency levels and the right mixture 
of foreign language and cultural and regional capabilities for 
individual personnel and units depending on their mission and 
echelon; three, what we risk giving up in terms of other 
readiness training in order to attain those capabilities; and 
four, conversely, what we risk if we don't develop these 
capabilities.
    We have witnesses from each of the services whose job it is 
to organize, train and equip this transformed force. They are 
joined by witnesses from the Joint Staff and from the Office of 
the Secretary of Defense, who also have a central role in these 
efforts. Our witnesses serve as the Senior Language Authorities 
in their organizations and are charged with overseeing the 
implementation of the Defense Language Transformation Roadmap 
and understanding the totality of the language needs of their 
organizations. The perhaps surprising complexity of this issue 
is reflected in the differences among the services in whom they 
have appointed as their senior language authority.
    Now, we are joined today by Mrs. Gail McGinn, Deputy Under 
Secretary of Defense in the Office of the Under Secretary of 
Defense of Personnel and Readiness; Brigadier General Gary 
Patton, the senior language authority for the Office of the 
Chairman of the Joint Chiefs of Staff/J-1; Brigadier General 
Richard Longo, Office of the Deputy Chief of Staff; Mr. Joseph 
McDade, Jr., Director of Force Development, Deputy Chief of 
Staff for Manpower and Personnel, U.S. Air Force; Rear Admiral 
Daniel Holloway, Director of Military Personnel Plans and 
Policy Division, U.S. Navy; Brigadier General Dick Lake, 
Director of Intelligence, U.S. Marine Corps.
    We appreciate you all being here.
    I am curious, do you all sit down like this on a regular 
basis, without cameras and microphones? Do you all meet 
together?
    General Lake. Yes, sir.
    Dr. Snyder. Good.
    We are going to ask--oh, the four service members, you were 
going to do opening statements, and then the other two will be 
available for questions.
    We have been joined by Mr. Akin, ranking member, for any 
comments he would like to make.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 35.]

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Thank you, Dr. Snyder.
    Thank you all for joining us here today. Obviously an 
interesting topic and one of a series of hearings on the whole 
subject of language and cultural awareness.
    As we are seeing on the ground in Iraq and Afghanistan 
today, the skills such as language and cultural awareness are 
key in reducing violence and establishing the rule of law. For 
example, the troop surge in Iraq would not have been successful 
without our troops' effectiveness in implementing 
counterinsurgency tactics which, at their heart, require the 
force to understand and respond to the local populace's 
concerns. As any Member of Congress knows, an understanding of 
local issues, a certain level of cultural awareness, is 
absolutely necessary to winning the support of the populace.
    I think as we have talked about in some previous hearings, 
one of the big questions that we run into is, in a perfect 
world, we can think of all kinds of things we would like to 
have people cross-trained in so there are experts in 
everything. Obviously some kind of balance in language skills 
are not something that you can take a pill to do. If you had, I 
would have bought some of those pills. It doesn't come easily 
to me. But that is the question, balancing your priorities in 
so many different ways.
    And also I would say that, at least personally, as I think 
of language skills, it is more than just language really, it is 
a whole cultural awareness. I had a friend that was a Green 
Beret trained up at Fort Devens years and years ago, and he 
talked about how they were trained. And, you know, when you are 
in Czechoslovakia, you don't count ``one, two, three.'' If you 
do that, they immediately know you are a foreigner. They start 
with their thumb, I think, or maybe their little finger or 
something. But you have to know those little nuances of 
culture, so that is an important thing.
    So I would be interested in your understanding of the 
balance, how do you do all the other warfighting requirements 
and still build some capabilities, particularly with the 
rotations and all that we have to deal with.
    Thank you, Mr. Chairman. And I appreciate your pulling the 
hearing together.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 38.]
    Dr. Snyder. Thank you, Mr. Akin.
    We will begin with General Longo. We have that very 
attractive clock there sitting in front of you. The green light 
will come on here. And when the red light comes on, that means 
five minutes has gone by. If you need to go longer than that, 
go ahead and do that if you need to, but we will try to stay as 
close as we can.
    So we begin with you, General Longo.

  STATEMENTS OF BRIG. GEN. RICHARD C. LONGO, USA, DIRECTOR OF 
 TRAINING, OFFICE OF THE DEPUTY CHIEF OF STAFF, G-3/5/7, U.S. 
  ARMY; JOSEPH M. MCDADE, JR., DIRECTOR OF FORCE DEVELOPMENT, 
  DEPUTY CHIEF OF STAFF FOR MANPOWER AND PERSONNEL, U.S. AIR 
 FORCE; REAR ADM. DANIEL P. HOLLOWAY, USN, DIRECTOR, MILITARY 
  PERSONNEL PLANS AND POLICY DIVISION (OPNAV N13), U.S. NAVY; 
  BRIG. GEN. RICHARD M. LAKE, USMC, DIRECTOR OF INTELLIGENCE, 
   U.S. MARINE CORPS; BRIG. GEN. GARY S. PATTON, USA, SENIOR 
  LANGUAGE AUTHORITY, OFFICE OF THE CHAIRMAN, JOINT CHIEFS OF 
 STAFF/J-1; GAIL H. MCGINN, DEPUTY UNDER SECRETARY OF DEFENSE 
    FOR PLANS, OFFICE OF THE UNDER SECRETARY OF DEFENSE FOR 
                    PERSONNEL AND READINESS

            STATEMENT OF BRIG. GEN. RICHARD C. LONGO

    General Longo. Mr. Chairman, Congressman Akin and other 
distinguished members of the committee, I appreciate this 
opportunity to speak on this important subject.
    I am the Army's senior language authority, though I am not 
a linguist. But I am committed to the importance of cultural 
awareness and language training in the Army.
    During my 15 months in Iraq, I participated in monthly 
council meetings with local sheiks, governors and imams, as 
well as too-numerous-to-count one-on-one engagements with Iraqi 
civil and military leaders. These experiences gave me a 
firsthand impression of how important it is to be good at 
cultural and language training.
    In today's environment, along with the need for expert 
capability, there is a need for foreign language and cultural 
awareness capability across the force. Our soldiers must 
conduct operations in multinational coalitions, as well as 
amongst the people in cultures that are quite different than 
our own.
    A problem that we face in the area of foreign languages is 
that the languages required are the most difficult to learn 
right now: Arabic, Pashto, Dari, Urdu, or the African languages 
of Yoruba and Hausa. Not only are they not generally taught in 
our high schools and in our universities, but textbooks aren't 
generally available in these languages.
    However, the Army has made significant progress over the 
last three years transforming our force, and I would like to 
highlight a couple of those.
    The heritage speaker program recruits native speakers of 
critical foreign languages into our Army. And since this 
program began, we have mobilized more than 600 native speakers, 
and they serve as interpreters in uniform. We are currently 
exploring expanding this capability beyond the Central Command 
area of responsibility and into the Pacific Command and the 
Africa Command.
    Human Terrain Teams, comprised of civilian anthropologists 
and soldiers, are currently deployed in support of brigade 
combat teams in Afghanistan and Iraq. These teams advise 
commanders and soldiers on key cultural aspects related to 
tribal structures, economic development opportunities, and 
formal and informal political structures, providing on-the-
ground expert input.
    In August, the Army implemented a program that awards 
incentive pay to Reserve Officer Training Corps (ROTC) cadets 
should they choose to take and study one of our critical 
foreign languages. Additionally, we have expanded educational 
opportunities by investing in commercial, off-the-shelf 
software, such as Rosetta Stone. And we have distributed more 
than 1 million products to the field, such as language survival 
kits, familiarization CDs, and head-start programs.
    We are also institutionalizing education for our soldiers 
and leaders in the Army. For the officer corps, it starts 
precommissioning, at the United States Military Academy and at 
the ROTC colleges and universities, but continues through their 
Senior Service College. For the enlisted force, it is similar. 
It starts at initial entry training and continues throughout 
their professional military education.
    Even with these successes though, I recognize that there is 
a lot of work to be done. This important business, creating a 
strategy that combines cultural and language expertise in a 
limited part of our force with a more general awareness and 
capability throughout the remainder of the force, that is our 
end-state. The Army takes the challenge of improving this very 
seriously. These capabilities are required to be effective in 
the operational environment, the world as we know it now, and 
the world as we project it to be in the future.
    We have more work to do, and I realize our ambitious end-
state, but we are confident we are on the right path. I 
appreciate the opportunity to speak with you today, and, 
frankly, I look forward to your questions. Thank you.
    [The prepared statement of General Longo can be found in 
the Appendix on page 40.]
    Dr. Snyder. Thank you, General.
    Mr. McDade.

               STATEMENT OF JOSEPH M. MCDADE, JR.

    Mr. McDade. Well, Chairman Snyder, Congressman Akin and 
distinguished members of the subcommittee, thank you for the 
opportunity to discuss the Air Force culture and language 
program.
    As you know, the United States Air Force has been at war 
for 17 continuous years. And during those 17 years, we have 
learned that language and culture is a force multiplier and 
must be a priority for our Air Force. Our culture, region and 
language program is therefore tailored to meet unique Air Force 
mission needs, along with producing airmen with key joint 
warfighting capabilities. By that I mean airmen who are capable 
of influencing the outcomes of U.S., allied and coalition 
operations and maximizing the outcomes by building partnership 
capacity. As you know, these specific capabilities are 
currently highlighted in the 2008 National Defense Strategy.
    Now, having described the effect we seek to achieve, the 
next obvious questions are how much and what type of culture 
and language development is needed. In order to answer these 
questions, we commissioned a RAND study that surveyed over 
6,000 airmen returning from deployments. The point of the study 
was to pull together the ground truth regarding airmen's 
assessment of what they needed downrange. The conclusions are 
clear: The majority indicated the cross-cultural competencies 
and more training in that area would have been more beneficial. 
A minority indicated that additional language skills training 
would have been beneficial. We gave this study great weight and 
believe it is the largest of its type yet undertaken in the 
Department of Defense.
    Now, based on the data we collected and the RAND study, as 
well as scholarly studies by our Air Force culture and language 
program down at Air University, we determined that cross-
cultural competency, or what we call 3C, was a capability that 
all airmen in the United States Air Force needed to possess. We 
also determined that we needed to redouble our efforts to 
provide language and regional skills to some airmen based on 
their specific jobs.
    Our rationale is this: 3C will prepare airmen to better 
understand and influence operations, activities or actors, to 
include joint, interagency, allied, coalition, noncombatant, 
and adversarial alike. Equally important, Secretary Donnelly 
recently issued a policy directive that hardwired cross-
cultural competencies into our leadership development programs.
    Our long-term goal is nothing less than a transformation of 
the way airmen think about their mission. This involves 
changing the way airmen think. This is why our primary effort 
will focus on professional military education. Our rationale: 
We will be educating all airmen on how to think about these 
subjects with increasing levels of sophistication during their 
careers.
    Language capability is a key component of our 3C strategy 
and embedded in the Air Force program, which is designed to 
build both language professionals and language-enabled airmen. 
As for the language professionals, the Air Force has 3,000 
cryptolinguists supporting global missions. Additionally, we 
provide targeted language training in support of 237 regional 
affairs specialists. And we are tripling the number of military 
members participating in military exchange programs in non-
English-speaking countries.
    Finally, if we are going to build partnership capacity, we 
must also invite international partners to the United States to 
train with us. In that capacity, we believe the Defense 
Language Institute English Learning Center is a premier 
capability for helping the United States build partnership 
capacity.
    In fact, Mr. Chairman, Congressman Akin and members of this 
committee, I think you will agree with me after you have a 
chance to come visit this school, and so here today I would 
like to make this invitation to you. Please join me, or have 
your staffs join me, in making a visit to this institution to 
visit its students and its faculties, and draw your own 
conclusions about whether or not you agree with my statement 
that this is an absolute gem in the Department of Defense for 
building partnership capacity.
    So, in closing, the Air Force viewpoint is that culture and 
language is and remains a priority to ensure we provide COCOM 
and joint force commanders with the culturally skilled, 
language-capable airmen they need to accomplish their missions. 
We appreciate your unfailing support to the men and women of 
our Air Force, and I look forward to your questions.
    [The prepared statement of Mr. McDade can be found in the 
Appendix on page 51.]
    Dr. Snyder. Mr. McDade, I don't know where the DLI English 
Language Center is. Is that in Texas?
    Mr. McDade. Yes, it is. Lackland Air Force Base.
    Dr. Snyder. Thank you.
    Admiral Holloway.

           STATEMENT OF REAR ADM. DANIEL P. HOLLOWAY

    Admiral Holloway. Chairman Snyder, Congressman Akin and 
distinguished members of the subcommittee, thank you for this 
opportunity to present an overview of the Navy's language, 
regional expertise and culture transformation and for your 
interest and support in these vital programs.
    Navy leadership used language, regional expertise and 
culture, or LREC, as a force multiplier in the international 
maritime environment of the 21st century. Catalyzed by the 
attack on USS Cole in October 2000, the Navy has made a 
concerted effort to enhance LREC capacity across the total 
force. We have taken stock of our capabilities and compared 
them to the known and projected requirements of the force, 
especially general purpose forces, and invested prudently in 
identified gaps.
    Moreover, to guide the transformation, we have implemented 
a strategy that allows us to shape and employ LREC attributes 
sensibly, intelligently and with optimum effect. This is an 
enormous challenge given our 24/7 global presence mission in 
the world, comprised of over 6,000 distinct languages. It is 
compounded by the balance we must strike between sustaining 
enduring technology-centric missions and emerging roles 
necessitating self-discipline, such as language and culture 
familiarity.
    Our maritime strategy states that trust and cooperation 
cannot be surged, and it directs us to develop sufficient 
cultural, historical and linguistic expertise among our sailors 
to nurture effective interactions with diverse international 
partners.
    To that end, we have set a course that requires a total 
force that appreciates and respects cultural differences and 
recognizes the risks of inappropriate behavior in foreign 
interactions, even if unintended; a cadre of career language 
professionals whose primary functions demand expert-level 
skills and knowledge; also, other language-enabled sailors and 
civilians with sufficient proficiency to interact at the 
working level as well; a reserve capacity of organic foreign 
language skill and cultural understanding that can be called 
upon for contingencies.
    To meet these requirements, our strategy, which is closely 
aligned to the Defense Language Transformation Roadmap, defines 
our priorities, the objectives and specific tasks. It 
concentrates program management, screens all sailors for a 
language skill, and it tracks their location. It generously 
incentivizes language proficiency as well, and facilities 
training for both the expert and the beginner. It reconstitutes 
our foreign area officer corps, establishes a center for LREC 
in the Navy, and delivers free mid-deployment training for the 
force, especially the general purpose force.
    The tradeoffs are not insignificant, however, but 
manageable with planning. Sustaining and enhancing the skills 
of our career linguists and regional expertise requirements, 
resources and time dedicated for this training. In the case of 
cultural awareness instruction for the general purpose forces 
(GPF), finding the time, even a few hours, on an already 
overburdened training cycle is challenging given the range of 
qualifications required for our fleet operations today, but we 
have taken a deep look. When a heritage sailor is augmented 
from his or her normal duties or contingency, a gap is created, 
and we have responded.
    Our maritime strategy places great emphasis on developing 
cooperative relationships before the crisis occurs, building 
foreign partnerships, and fostering trust--all preventives to 
conflict. Considering the ability of LREC to facilitate and, in 
some cases, enable foreign access, any risks assumed with this 
tradeoff is a diminishability to execute regional engagement in 
the future.
    Finding the right plan of capability and capacity relative 
to global demand is essential. We still have work to do. We 
understand the problem. But we are confident our approach is 
right for our Navy operation.
    On behalf of the Chief of Naval Operations and the Chief of 
Naval Personnel, thank you for your interest and support in the 
Navy's LREC program. And I would be pleased to respond to your 
questions, as well. Thank you, sir.
    [The prepared statement of Admiral Holloway can be found in 
the Appendix on page 63.]
    Dr. Snyder. Thank you.
    General Lake.

            STATEMENT OF BRIG. GEN. RICHARD M. LAKE

    General Lake. Chairman Snyder, Congressman Akin, 
distinguished members of the subcommittee, thanks for inviting 
the Marine Corps to come here today and share with you how your 
Marines are transforming language and cultural issues within 
the Marine Corps.
    As a foreign area officer myself, as someone who was an 
undergraduate major in modern languages, and as the Marine 
Corps's senior language authority, I have a deep, both 
professional and personal interest in this subject.
    In part due to our heritage and our expeditionary nature, 
the Marine Corps has always been very interested in languages 
and cultural competence so that we can operate in every time 
and place. But our experience since 9/11, as well as our 
assessments of the future operational environments we are 
likely to be employed in in the future, has only sharpened that 
interest and made us recognize that we need to do more, because 
we need to have Marines that are capable of navigating the 
human and cultural terrain just as well as they are able to 
navigate the physical terrain on the battlefield.
    In order to accomplish this, starting in 2003 the Marine 
Corps instituted a plan for implementing operational cultural 
and language skills for every Marine. As you requested, Mr. 
Chairman, I am going to focus today on the general purpose 
forces and not our career linguists, although we have made some 
very significant improvements for our career linguists as well.
    When the Defense Language Transformation Roadmap was issued 
in 2005, it provided additional guidance and, as we would say, 
reinforcing fires to some of the efforts that we had already 
ongoing. And based on lessons learned from ongoing combat 
operations around the world, we continually try to fine-tune 
and improve our plan.
    Basically I would break our overall plan down into five 
basic parts.
    The first part I would call entry-level operational 
cultural awareness training and language assessment. Every man 
or woman coming into the Marine Corps, when they stand on the 
yellow footprints at San Diego, Parris Island or at Quantico, 
shortly thereafter they will receive formal classroom 
instruction on operational cultural awareness. We will also 
assess them for any language skills they bring with them, so we 
have an idea of what our capabilities are.
    Now, the second area I would focus on is our predeployment 
cultural awareness and language training. This is generally 
specifically tailored to each unit, each mission, each area to 
which they are going. We focus on this. The initial phases of 
the training occur at their home station, but the final phase 
of the training, the final predeployment exercise is at another 
location, oftentimes 29 Palms, California. But that is where 
they have a full-scale, live force on force to include native-
speaking role-players, in which they are evaluated on their 
ability to carry out their mission profiles, which also 
requires them to use language skills and appropriate cultural 
awareness and sensitivities.
    The third area we have is our Career Marine Regional 
Studies Program. And for our career force, which we define as 
all Marines who are past their first enlistment and all 
officers, even on their first tour, are assigned a geographic 
region and have an expectation to complete a variety of 
cultural, regional and language courses in that area as they 
progress through their career.
    Now, the fourth area I would call our operational cultural 
and language enablers. And that includes, for example, in 2005 
we stood up our Center for Advanced Operational and Cultural 
Learning at Quantico, and they are the ones who do most of this 
training for the Marine Corps. We have established additional 
language resource centers, language labs, at eight major Marine 
Corps bases in addition to the six other language labs we 
already had out there for our career linguists.
    We have purchased computer culture and language simulation 
programs, a video game if you will, where you have to use 
language and culture. We have these in Iraqi, Dari, Pashto and 
sub-Saharan African, French, and they are developing more. Next 
year we are going to be taking delivery of a modified version 
of Rosetta Stone, the popular commercial language software that 
has been modified for military terms and military missions. The 
Marine Corps intel activity remains one of the leaders within 
DOD and the intel community on developing cultural intelligence 
products.
    The last area I would mention is our incentives to support 
this. We have increased, thanks to the support of Congress and 
others, access to Marines who speak foreign languages, whether 
they learn it on their own, they have it as a heritage skill or 
they have been trained in it. And we particularly do that for 
Marines who speak languages of interest in the global war on 
terrorism. We pay re-enlistment bonuses to Marines with certain 
language skill sets. And we offer the ability for Marines of 
any specialty to study global war on terrorism-related 
languages as a re-enlistment incentive, in addition to any 
others.
    In conclusion, over the past five years, we have made a lot 
of progress in the area of cultural awareness and language 
skills, but we are going to continue to make progress on it. 
And with the support of Congress, I think we will be even 
better five years from now than we are today.
    Thank you, sir. I welcome your questions.
    [The prepared statement of General Lake can be found in the 
Appendix on page 75.]
    Dr. Snyder. Thank you, General Lake. I think, when you met 
with the staff some time weeks ago or days ago, you brought a 
couple of those smart cards, I don't know if the members have 
seen those, that we will run down here and back the other way.
    I want you to know, General Patton and Mrs. McGinn, you are 
not off the hook. In fact, my first questions are going to be 
directed to you two.
    But we are going to begin our questioning with Ms. Sanchez, 
who has probably got more language skills than most Members of 
Congress. Then we will go to Mr. Akin and then back to me. So, 
Ms. Sanchez for five minutes.
    Ms. Sanchez. Thank you, Mr. Chairman. I appreciate you 
giving your time to me.
    And thank you all for being before us. Obviously, I think 
this is one of the most critical things that we need to get 
done correctly in the military.
    Now, I will just say that I was recently at 29 Palms with 
Federal Judge Dave Carter, and we actually went in to swear in 
some new American citizens, Marines and Navy, who were there, 
because they were leaving to Iraq in the next few days and we 
wanted to get them sworn in. And I was really amazed, of the 28 
that we swore in, there was a guy from Kazakhstan and somebody 
from Ukraine and several people from South America and some 
Indonesians. So I do think that we see more and more reflection 
of the fact that we need to get native speakers in if we are 
going to do the military role, so I applaud you on there.
    And I guess my first question goes to the whole issue of 
myself having been brought up in a bilingual home and having 
had the chance, actually, to live in many places around the 
world and learn the language as a native--among those 
languages, Spanish, Arabic and some others. There is a big 
difference between knowing the culture and knowing the language 
and being very adept at it and catching the very subtle things 
that are going on, versus something that I see happen often 
when people try to learn a language later in their years and 
maybe their first one and then maybe they are using Rosetta 
Stone or something of the sort and it doesn't quite just click 
well.
    So my question is, what is the process that we are using 
with respect to just getting enough information to--enough 
knowledge to our troops to do stops and goes, et cetera, these 
little cards, but what are we really doing to get some real 
native type of speakers if they don't happen to be native? 
Because we have the other problem that maybe we don't have 
enough native speakers that are going to be joining the 
military. What is it that we are doing in the long term to get 
some real culturation of that grouping?
    Because the nuances are really fine. I remember when I 
worked for Booz Allen and I was in the Mexico City office and 
there were all these guys from the Mexican Federal Government 
who had been trained at Harvard, et cetera, et cetera, and we 
were all speaking in English, and we were making a 
presentation. And it dawned on me that the people from America, 
the Booz Allen people, were saying something and everybody was 
nodding their head thinking they were following along the 
discussion, but they were completely missing the point. And it 
wasn't until I came back in Spanish and explained to them what 
was really going on that they realized they had been completely 
wrong about what we were trying to tell them.
    So how are we finding those types of people, the people 
that really understand the culture?
    General Longo. Well, if I could take that on just to start, 
and then I would defer to anyone else.
    There is a couple tacks. What you are saying is exactly 
right. And I have been in environments where a subtle 
misunderstanding or subtle missing of a nuance could have 
catastrophic effects. So I am with you. And we kind of attack 
this in three different ways with our expert part of the force, 
with our foreign area officers, with our civil affairs 
officers, with our psychological operations (PSYOPs) guys, with 
some of the military intelligence specialties where we focus 
their training, that is their career field.
    And then the second thing is, as you alluded to with the 
Marines and as we have with our heritage speaker program, you 
know, going out into the United States and finding this talent 
and bringing them into the military. And we have robust 
enlistment recruiting bonuses to encourage them to do so. Often 
it is a very good deal for them. We started just 3 years ago, I 
think, with 25, and we are now up to 600. So I don't even think 
we have begun to tap into this American resource that we can 
use to get after this.
    And then, third, when required, you know, we may have to 
just contract that capability. And that is not the best 
solution. The best solution is to have a soldier, airmen, 
sailor or Marine standing next to you, but sometimes that is 
the best we can do.
    And I defer to my colleagues.
    General Lake. One other point, and I think you made that, 
ma'am, as did General Longo, but my take on the census data in 
the United States for at least the past two censuses, censi--I 
am not sure what is appropriate--but we have an increasing 
amount of Americans or legal residents in this country who 
speak a language other than English at home. And the good news 
is there is generally a fair correlation with those percentages 
in the American population and those percentages represented in 
the military.
    So we are trying to recruit soldiers, sailors, airmen and 
Marines to come into the Armed Forces. But also, once they have 
made that decision, we are also trying to incentivize and 
recognize and encourage them. And I know one of my standard 
things whenever I travel about, I am always identifying folks 
that speak a language and saying, ``Hey, do you know we can 
give you some money if you get tested?'' And most people are 
very grateful when they are told they can earn some money.
    Mrs. McGinn. Can I add one thing or, actually, two things?
    We are doing more and more immersion studies now, sending 
our students from the Defense Language Institute and the 
military academies overseas to live with the population for a 
while.
    I met some cadets from the United States Military Academy. 
One of them went over at a level zero language proficiency to 
Russia and she came back at a level two, which is really quite 
a huge jump. And she lived with a Russian family. So we are 
doing those kinds of things more and more.
    The other thing that we have been doing in DOD is really 
trying to prompt the United States as a whole in its 
educational system to start teaching languages at young ages, 
because that is when you really develop the facility, I think, 
for learning the language. And if the U.S., as a populace, as a 
whole, is teaching these languages, then when we recruit people 
and we need to get them new languages or to higher proficiency, 
we have a better shot at doing that.
    Ms. Sanchez. I would agree with that. In fact, I have a 
general bill for kindergarten through 12. That is a whole 
global language bill that I think we dropped or about to drop. 
So I am very interested in that whole issue.
    Mr. Chairman, I know there are others, but I have some 
other questions, and I am sure if we do a second round I would 
be interested in that.
    Dr. Snyder. Sure. We will.
    Mr. Akin for five minutes.
    Mr. Akin. Thank you, Mr. Chairman.
    I guess one of the things particularly is--you all look 
like young men to me at this point, but as you are working up 
to becoming a general and all, there are a bunch of different 
steps, career-wise, that are traditional that you take. And to 
the degree that that career path includes some type of language 
background or awareness of it is going to determine, kind of, 
where we are.
    Has there been any discussion as to how to build that into 
the equation, in terms of the career path? Because, in a way, 
that is the incentive to have some involvement that way.
    Or, at least, I know from my son's being in the Marine 
Corps, they have all kinds of different parameters for a given 
unit. In other words, my son had to take the advanced 
lifesaving because they didn't have anybody else and he was 
some poor sucker that they stuck in this school, which was very 
hard. But they have all these different requirements in a unit, 
that we need to have somebody that can do this, somebody that 
can do that.
    Is that being built into any of our parameters at this 
time, either Army or Marines or Air Force or whoever?
    General Lake. Well, sir, that is where we are trying to go 
with our Career Marine Regional Studies Program. What we are 
doing in the shorter term is in the predeployment training. 
And, as I said, we try to have a broad menu that people can 
choose from, the commander can choose from, based upon their 
mission and what have you. But one of the consistent things 
that I hear back from commanders is, with everything else they 
have on their plate, they still would like to try to squeeze in 
more language training.
    And so, in many units, some units, what they will do is 
they will take a designated level of personnel. Surprisingly, 
many Marine units will take their squad leaders or perhaps 
their fire team leader, the key small unit leaders, and say we 
have--and if they have 30 days, we will set up a course for 
them for 30 days. If they have 22.5 days, we will give them 
22.5. But we are trying to tailor it so that they get as much 
predeployment language training as they can fit into the 
schedule, sir.
    Admiral Holloway. If I could, sir, on the officer side, as 
an example for the Navy, we have integrated our regional 
content and cultural awareness into our Navy Professional 
Military Education (PME) at the apprentice, journeyman, and 
master levels.
    Also, as an example, in our session program, sort of taking 
this from the street to the fleet, as we look at Chinese and 
Arabic majors now online at the Naval Academy, an expanded 
study abroad with full semester exchanges, which gets back to 
your comments, ma'am, about immersion programs.
    Also, up to 25 ROTC scholarships reserved for language and 
regional majors. And at the Naval Academy, for nontechnical 
majors, four semesters of language now is a requirement, 
strongly supported by our superintendent commandant.
    We have up to an increase of 18 to 26 exchanges, as well, 
for officers in our exchange Personnel Exchange Programs (PEP) 
programs, and certainly realign to a 10-year look at where we 
think our future partnerships are. That is a snapshot of the 
Navy today on the officer perspective of that growth.
    Mr. McDade. And, Congressman, if I could add to that, 
again, I agree with what has been said by both Marine Corps and 
the Navy on this topic. But the Military Personnel Exchange 
Program that I mentioned in my oral comments is really designed 
to take operators in non-English-speaking localities, so they 
develop not only that foreign language skill but relationships 
with those countries. So, again, that is why we think that is a 
sweet spot for us to try and develop officers who will have 
those skills.
    The only other thing I would mention to you, again, to 
foot-stomp, when Secretary Donnelly put out this new policy 
directive on forced developments, said we are going to have 
cross-culturally competent airmen, that is now turning all of 
our force development machinery, to include PME and other 
career development programs, to say this is now a requirement 
for the United States Air Force. So that is hot off the press; 
27 August is when it was published.
    General Longo. In the Army, we have many of the same 
programs, so I will not repeat them, but I would like to get at 
the professional advancement aspect.
    Very informally, on the officer evaluation report, there is 
a part that says, ``Tell me about any significant skills and 
attributes that this officer might have, completely independent 
of his current job position or his future potential.'' And that 
is a place where more and more senior leaders are starting to 
look for that bullet that says that this guy is fluent in 
Arabic, and that becomes beneficial to him.
    Additionally, we are looking at using language capability 
in our officer courses as a parameter when we are developing 
the Order of Merit List, which ends up having career-enhancing 
capabilities.
    So we are looking at that. We are not where I think both 
you and I know we need to go, but we are walking on that path, 
sir.
    General Patton. And, Congressman, I would just like to add, 
from the joint force perspective, the foreign area officer is 
the officer of choice, really as the soldier statesman out 
there around the world. We are doing some things to grow the 
inventory of foreign area officers. We have an inventory of 
about 1,600 now. A large majority of those are Army officers 
and Marines, which have had a fairly mature foreign area 
officer program. That is a career path.
    When I was growing up as a major and a lieutenant colonel, 
it was not an option. You actually called it dual-tracking, 
where you did part-time foreign area officer and then you 
returned to the infantry, and back and forth. And we learned 
that that wasn't as productive as developing a single track, 
whereas a foreign area officer would be able to stay dedicated 
in concerted effort, education, assignments and so forth, along 
that career path of foreign area officer.
    The Navy and the Air Force have picked up those programs 
here in the year 2005. We have increased our throughput, I 
believe, by over 100. I think our throughput is now about 170 
per year. And we will be able to increase our inventory by 2013 
by a thousand more foreign area officers. So our stable of 
foreign area officers across all four services will be deeper 
in years to come.
    Mr. Akin. Thank you very much.
    I think we are out of time. So thank you, Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Akin.
    I will take my five minutes now. And I want to begin with 
you, Mrs. McGinn and General Patton. And each of you take most 
of my time if you want, and we will let the others comment if 
they want. But I would like you to discuss the issue of 
determining the requirements, and then how you link that with 
building the capabilities for meeting those requirements.
    It seems like, for the last seven or eight years, as 
General Lake just said, he runs into somebody that has a 
language skill, he knows he needs that language skill. Will we 
ever reach a point when we think, ``I think we have too many 
Arabic speakers''? Most of us don't think so.
    But would you talk about the practicalities of the issue of 
determining requirements and building the capabilities to meet 
those requirements?
    Mrs. McGinn. I have been around that requirements issue 
longer than General Patton, so I will start for you.
    One of the things we realized when we built the 
Transformation Roadmap was that we needed to try to get our 
arms around what these requirements were. General Patton's 
predecessor built a tool, with our help, to send to the 
combatant commands so that they could try to articulate what 
their requirements were against certain of their operating 
plans so that we would be able to plan for the future.
    We have been collecting that corporately for a couple of 
years, I think, and what we have now is what I would describe 
as a raw set of requirements. We have about 141,000 identified, 
most at low levels of proficiency, which is good news for us 
because it is easier to train with that. They are in some very 
difficult languages, as you could imagine. But they do call out 
the proficiency, what the individual would need to do, et 
cetera.
    The problem was that, even though we had put guidance out 
there for all of the combatant commands, they all did it a 
little bit different. And so we had a conference to, kind of, 
go through and rationalize ``how did you send the number that 
you sent?'' What I think we discovered was, even though they 
did it differently, they all did it with a little bit of 
science, so we didn't get anything spurious in there, but we 
still need to reconcile that.
    One of the next steps for us is we have created a language 
readiness index into which we can put what the operational 
requirements are and we can compare those operational 
requirements to our language capability inventory on hand. You 
probably saw that we have screened the whole force or we are in 
the process of screening the whole force for language 
capability. So we have a database that can tell us how many 
Farsi speakers we have, how many Arabic speakers we have at 
what level.
    This just started to be operational last month, but it will 
give the leadership the opportunity to look at capability 
versus need and just be indicative of where we need to focus 
our efforts in terms of going forward on the requirements 
issue. So we look forward to that being fully populated, so 
that we could do that.
    Dr. Snyder. General Patton.
    General Patton. Yes, sir, it really comes down to what is 
the demand signal that we provide from the joint force to the 
services so they can train, recruit and so forth. And I would 
break it down into a couple of areas.
    We have day-to-day requirements, and I think we send a good 
demand signal to the services on day-to-day requirements 
through the billets, the positions on the unit manning 
documents that exist at the combatant command headquarters and 
their joint support and activities and so forth. And those are 
well-documented. And the language readiness index, as Mrs. 
McGinn mentioned, will be able to pull as a kind of a search 
engine from those unit manning documents and give us a little 
bit better. But, generally speaking, I think we have a fairly 
accurate demand signal for the day-to-day requirement.
    Where it gets more abstract--and I am borrowing your term 
from your opening statement, Dr. Snyder--but we have a set of 
requirements that exist in combatant commanders' war plans. And 
we know those requirements have been broken down in some degree 
of detail. But the direction we need to go in the future here 
with the Defense Language Steering Committee--and we do sit 
down together. And we comprise the Defense Language Steering 
Committee, us six, and other members. But we have agreed that 
our next step is to gain better fidelity on defining and 
refining those requirements that exist in the war plans and 
translating that to a capability that is needed in the services 
and demand a signal that then the services can train and 
recruit towards, and recognizing that not all those 
requirements in the war plans equal a Marine that needs to 
speak a language or a sailor or what have you. In some cases, 
it might be a piece of technology. In some cases, it could be 
contracted.
    But it is very important, I think, that we give more 
attention to defining and refining that requirement resident in 
the current plans in a little better definition, some help from 
the combatant commanders, and then translate that into 
something more useable than we have today as a demand signal 
for the services. And that is going to be a primary agenda item 
for our Defense Language Steering Committee in the near term.
    Dr. Snyder. Yes. Mrs. Davis for five minutes.
    Mrs. Davis of California. Thank you.
    Thanks for being here.
    Perhaps just along the lines of what you just said, I mean, 
I think that what we are all looking for--and you spoke to this 
in terms of you all getting together and taking a look at 
this--it is much more than numbers, in terms of capability and 
capacity and a good bench that we have, in terms of this 
language development, but we still need that.
    And you mentioned 1,600, I think. And I was just looking 
for a little bit of numbers. I mean, what has really changed as 
a result of the work that is being done with the Transformation 
Roadmap and others, in terms of being able to say, okay, we 
don't have the capability right there, but it is going to take 
us three years to get there; therefore, we have these number of 
individuals, how can we get there? And what is the best use, 
efficacious use of dollars? You know, who should we be training 
in the way that we get those officers when they are needed?
    Or is the effort with ROTC, because you can do that to a 
greater capacity, is that better? And are we really going after 
those programs? I know that we are doing some of them. I have 
seen them in San Diego, and I am proud of the effort that is 
being done there and with some immersion programs with the 
Marines. But it is kind of a drop in the bucket, really. And do 
we have the ability to--you know, is that something that we 
really need to triple, quadruple our efforts and do it 
tomorrow, as opposed to we don't? I am guessing--do we have 
that information, do we really know where that effort should 
be? And what, in actuality, numbers, has changed?
    Mrs. McGinn. I don't know if I can address the numbers 
right now. But the issue of the ROTC, the Department decided in 
the last Quadrennial Defense Review--I think going back to the 
question about how you get generals with this capacity--was to 
go for pre-accession language training for our officer corps 
because it is so difficult to take time out to learn these 
languages as you are progressing through an officer career. So, 
therefore, we received funding for the military academies. All 
of them have plussed up their programs, their immersion 
programs. They have added languages like Arabic and Chinese. 
And the cadets are doing it.
    ROTC was more difficult. Most ROTC programs don't teach the 
languages that we want. But we have instituted a series of 
grants, also funded through the Quadrennial Defense Review. We 
are providing grants to ROTC programs and universities, 
competitively awarded, to develop model programs that will 
incentivize the ROTC cadets to study these difficult languages. 
Some of them are building curriculum, some of them are 
immersion. I think we have awarded 12 of those grants. We will 
be awarding a total of 50 sequentially, adding some every year 
as we go along.
    Mr. McDade. Congresswoman Davis, I have some numbers for 
you from some of the testimony, having had a chance to read 
some of it. Are you interested in some of those numbers to show 
you what has changed?
    Mrs. Davis of California. Yes.
    Mr. McDade. They are significant. Just for example, in 
2001, the Defense Foreign Language Center had 1,400 students 
enrolled in Arabic, Chinese and Persian. By 2008, that number 
had doubled.
    Since 2001, the DLI has dispatched more than 380 mobile 
training teams, training more than 66,000 people, and handed 
out more than a million of those language survival kits, some 
of which the committee has seen.
    In fiscal year 2001, there were about a thousand Army FAOs 
and 149 Marine Foreign Area Officers (FAOs). In 2008, those 
numbers were 1,600 in the Army, Navy, Marines and Air Force.
    Mrs. Davis of California. Can I just ask you, where are 
those individuals serving then? Are they able to move forward 
and to really be out in the field?
    Because every time we ask questions about how are we doing 
out there in terms of having individuals who have these skills, 
we are always hearing, well, you know, we are not there, we are 
not even half there. So I am just wondering where----
    General Lake. Yes, ma'am. Two points, one on your numbers.
    In 2005, we were paying 363 officers and 1,530 Marines 
foreign language proficiency pay. So these were folks who 
demonstrated a proficiency to one standard or another. As of 
June of this year, we have almost doubled that, in terms of 
numbers, over 600 officers and over 2,100 Marines.
    But to your question, do we have enough of them out there, 
no, ma'am. We have them out there; they are working very hard. 
But a point I would like to make, particularly of those folks 
who have a language capability and a cultural awareness 
capability, while ideally if you are in Iraq you would 
desperately want to have Arabic foreign area officers, every 
one you could get your hands on. But we have also found that 
people who have these language and cultural skills are 
incredibly valuable just by the fact that they have the--and it 
may be a totally different language but they may have an 
aptitude, and also they have the cultural skills.
    And so one of our most effective foreign area officers we 
have had recently in Iraq was a Latin American foreign area 
officer. He picked up Arabic very quickly. I won't say he is 
proficient in it, but he had enough there, but he also had the 
cultural skills. Kind of, it was like teaching him not 
necessarily the techniques, but he had the education, the 
foundation. And so he was able to develop an amazing rapport 
with his counterparts.
    So we don't have enough, but we are getting better.
    Mrs. Davis of California. And be thinking about what else 
do you need from us. Because I know that all my education folks 
would tell me, ``The Department of Defense has all the money. 
You know, if they would incentivize our programs, we will be 
happy to support them. But we can't do it now.'' And you can 
look at the budgets across this country in education.
    Dr. Snyder. They just called one vote. And I think we have 
enough time to get five minutes from Mr. Bartlett and then five 
minutes from Ms. Sanchez and then we will have a temporary 
recess and go vote.
    Mr. Bartlett for five minutes.
    Mr. Bartlett. Thank you very much.
    I want to apologize. I couldn't be here for your testimony, 
but I really wanted to be here, because I think what you are 
doing is enormously important. I have a feeling that we might 
have had fewer wars and lost fewer people, our young people, in 
the past if we had been focused on this more in the past.
    You talk about language skills. Seventy percent of all 
communication is nonverbal. And there are a lot of nuances in 
language. And if all you are doing is reading what somebody 
wrote, you have missed at least 70 percent of their message. So 
I think that language skills are enormously important in 
understanding the other person. Cultural awareness, gee, this 
really does influence how you react to things, doesn't it, and 
what we say and how we say them. And something that is not 
meant at all to be provocative may very well be because we 
don't understand the cultural awareness.
    And regional expertise capabilities are also very 
important. I asked at a former hearing a State Department 
person why these people hated us enough to blow themselves up 
to kill us. And they looked at me like, gee, that is really a 
dumb question, isn't it? You know, why are they doing this? And 
I think that if we had focused more earlier on really 
understanding their language and their body language--this has 
to be different with different languages, doesn't it? And with 
cultural awareness and regional expertise capabilities, that we 
might have fewer conflicts today.
    Just going in, I want to know why they hate us. And I 
haven't been given a satisfactory answer to that. Can you tell 
me why they hate us? And don't tell me it is because we are 
rich and free. I don't know anybody in the world who wouldn't 
like to be rich and free, by the way. Is there another answer?
    General Patton. Sir, I have 27 months in Iraq, so maybe I 
can try and answer that question, maybe not from a language 
standpoint but just from a U.S. forces standpoint.
    I mean, I have stood face-to-face with people and 
negotiated with them through linguists, and I knew that they 
hated me. They disliked me being in al-Anbar province in the 
year 2004. They disliked the fact we were placing an election 
process; it was something that they were not used to. They 
disliked that we were from another religion, them being 
predominantly Sunni and us, the coalition, being not Sunni.
    And although, given all of that dislike and differences, 
cultural language and so forth, when I asked these folks who 
were my adversaries some days and my allies others, when I 
asked them would you prefer that we would leave your province 
and so forth, their answer was always no, because we know what 
the American military represents, you represent discipline, you 
represent what is right. And right now we are counting on you 
to bring some degree of security to our province, our very 
troubled province. And that was in al-Anbar province back in 
2004, 2005. Today they are running 5K races, parades, and 
generally a violent-free province there. But it wasn't that way 
several years ago when there was a great degree of dislike, as 
you put it.
    But we recognize those differences, and we have learned 
over the years to deal with that as a common interest, the 
common interest being that they wanted us to leave and we, as 
servicemen on foreign soil, we wanted to leave too. But we had 
a mission to accomplish before we were able to do that.
    So that is just the best answer I can give you on that from 
my personal experience.
    Mr. Bartlett. This is your experience after you got there, 
after we were there. I am concerned about our ability to 
understand and communicate before it came to shooting each 
other.
    General Lake. Sir, if I might, and I don't want to paint 
everything with too broad a brush, but if you read--Osama bin 
Laden has spoken and written extensively on what he is after, 
and he is quite clear why he and his movement do not like 
Americans. And it gets down to some very fundamental things, 
whether it is the United States position on Israel, whether it 
is what they perceive is our too liberal, too irreligious 
society. And he, in his writings that preceded 9/11, has pretty 
much identified what we would have to do to get al Qaeda to 
cease its efforts against us. And pretty much we would have to 
change life as we know it. We would have to veil our women. We 
would have to all convert to Islam. We would have to abandon 
Israel and other allies.
    And it is just a list--it is a very clear list, but it is a 
list that virtually everything on it is something that--my 
colleagues and I here, we joined up and have sworn to support 
and defend the Constitution. And our interpretation and the 
will of our elected leaders in both Congress and the White 
House have said the United States doesn't stand for these 
values. We value religious freedom. We value equal rights. We 
value support to our allies. Unfortunately, many of these 
things are things that just are totally antithetical to them.
    Mr. Bartlett. Mr. Chairman, the General has made my point. 
That is, what you see depends on where you sit. They see us as 
exploiting women. We certainly see them as exploiting women. 
Women are treated very differently in our two cultures. If we 
were able to sit down and talk, maybe we would come to a common 
understanding. They think because our women run around 
frequently scantily clothed, as sex objects, that we are 
exploiting women. They think that they are protecting their 
women because you can see no sexual aspect of the women. Two 
eyes is about all you see there.
    So it is very true that what you see depends on where you 
sit, and I think that is why what you are doing is very, very 
important. And I hope we do a whole lot more of that and a 
whole lot less shooting in the future.
    Thank you all very much.
    Dr. Snyder. We need to go vote. We will be back--I think 
there is only one vote. Hopefully we will be back fairly 
quickly, and Ms. Sanchez will be up.
    [Recess.]
    Dr. Snyder. We will come back to order, and Ms. Sanchez is 
recognized for five minutes.
    Ms. Sanchez. Thank you, Mr. Chairman.
    I just wanted to make a comment to Mrs. McGinn that indeed, 
at least in California, we are beginning to see different 
languages taught as part of the regular curriculum in middle 
and high school. So I think that is going to allow us to have 
sort of this pipeline. I know we have been able to put in 
Vietnamese and Mandarin in the area where I live because we 
have high Asian populations in particular of those two 
cultures.
    I have a question for General Longo. I sent you a letter 
recently, and it was with--and I haven't received a response, 
by the way, but it was just August 19. And it is a discussion 
about your new request for a proposal (RFP) that I believe that 
you are developing for language learning. And my question is 
with respect to the particular RFP, what is the status of it? 
When do you expect the RFP will be released? And more 
importantly, I am somewhat concerned about, how do we ensure 
that soldiers that are put in the theater may be in a theater 
different than the language that they have actually decided or 
have selected to work on can continue to use language training 
tools even if they don't have Internet access?
    General Longo. Ma'am, those are all great questions. And I 
will tell you that I have responded to your letter and mailed 
it quite some time ago. And in anticipation that the mail here 
is no better than in the Pentagon, I brought a copy.
    Ms. Sanchez. Oh, good. Well, you know, they have to 
irradiate it even when it is from a general because who knows 
what you are sending to me.
    General Longo. Yes, ma'am. We will leave it with you, 
number one.
    The particular program that you are referring to is an 
online interactive capability for soldiers. Currently, the 
vendor is Rosetta Stone, and their contract was set to expire 
on the first of October, and we are in the process of 
recompeting that contract. It is a robust five-year contract.
    What we did, because we are not--we are not moving along as 
quickly through the contracting part as we wish, all for very 
good reasons, because of the size of the contract, we want to 
make sure we do it right, we have extended the contract with 
Rosetta Stone for six months to allow us to get through that 
process. So we are going through the contracting process. We 
expect to have numerous competitors, and we will make a good 
decision when their request for proposals come in.
    Now, reference soldiers who are deployed who may not have 
access to the Internet, it is a great question. The current 
vendor, Rosetta Stone, has given us the authority to--and given 
us the capability to give them each the CD that doesn't require 
Internet capabilities. So the same CD you see in the airports 
as you are driving through--as you are walking through and you 
see the Rosetta Stone vendor there, they are allowing us under 
the same contract to provide the CDs to the soldiers downrange 
so that they won't be dependent on the Internet. And it works 
well.
    Ms. Sanchez. Great. Okay.
    I think I have got some other questions, but I think I will 
defer to you, Mr. Chairman.
    Dr. Snyder. Thank you.
    I wanted to ask--I will start with you, General Longo. 
Well, I am always having trouble. When you have six witnesses, 
I can't keep up with all the written statements.
    Ms. Sanchez. When you all turn them in.
    Dr. Snyder. That is right. It was great to have them. When 
you refer to the conflict of, which we have talked about, too, 
and I mentioned it in a different way, which was, we would all 
like to have intense language skills, but you referred to the 
core warfighting skills, that it can't be replaced, the core 
warfighting skills. I think was on page 10 of your written 
statement; I was struck by--where is that quote from that 
report here, the fellow that said, if we had all had good Arab 
language, that we would have been in Iraq for two years. Yeah, 
it is on page nine. Find that for me. I want to read exactly 
what it said.
    Oh, here it is. Oh, yes. This is from, ``On Point II: 
Transition To the New Campaign: The United States Army in 
Operation Iraqi Freedom, May 2003 to January 2005,'' and 
quoting Major Kenneth----
    He says, quote--this is the fellow who had had Iraq 
experience--quote, ``if all our soldiers spoke Arabic, we could 
have resolved Iraq in two years. My point is that language is 
obviously an obstacle to our success, much more so than 
cultural. Even a fundamental understanding of the language 
would have had a significant impact on our ability to 
operate.'' That is his quote from the Army's report.
    And so it creates this issue of the division between what 
is considered a core warfighting skill and somehow language 
skills are superfluous to that is probably not a very firm line 
anymore. At our first hearing we had on this topic, I played a 
brief interview with a Guy Gabaldon. He is now deceased, World 
War II veteran, who learned Japanese language as a teenager in 
California before he was recruited by the Marines, I think, 
wasn't he? He was on a Japanese island and was able to convince 
over 1,500 Japanese soldiers to surrender, come out of caves 
and surrender, by himself. And I think his greatest one is he 
ran into a regimental commander, and they brought in 800 at one 
time.
    Well, I would say, maybe that should be a core warfighting 
skill. We would all like it, wouldn't we? We would all like it 
if all our soldiers and Marines on the ground had reasonably 
good Arabic language skills. And I have talked to some that do, 
and it has been very, very helpful. But the issue is what we 
all have been talking about, at what risk and what training, 
the time it takes to train. But part of the reason I was 
interested in this topic over the last several years is, what 
is a core warfighting skill when the nature of war is changing?
    So any response to that you might want to add, General.
    General Longo. I think my first response is, you are spot 
on. I think you have it exactly right. And if there was 
something in my statement that diminished the importance, then 
that wasn't intentional. I think with our Army today--and we 
use the term ``full spectrum operations''--we don't know 
whether we will be doing stability operations or offense or 
defense, and we have to be prepared to do them all. And being 
able to speak a language at a native capability is definitely 
worth it.
    The question is, what is the cost? And I am not talking 
about money. I am talking about time mostly. How much do we 
have to invest to get native capability throughout our force? 
Now what do we do right now? We embed mostly culture and some 
language training in all of our professional military education 
programs. Now, does a person leave with expertise? No. What 
else do we do? Before they deploy, we send out a mobile 
training team in that language to give them the basics of, you 
know, ``stop,'' ``how you doing,'' ``what do you need?''
    But I think--I mean, when we send an Arabic, a potential 
Arabic linguist to the Defense Language Institute, I am not 
sure how long that takes. But it is over a year. So can we 
afford--and then they come out, and they are not native. Even 
though we have invested that year, we are trying very hard; 
they are much better than they were when they went in. So the 
question is, how much can we afford in time to invest in the 
force as a whole? And what if we get the language wrong? We are 
in--we are in an Arabic area now, but what if the next thing is 
a part of Africa that speaks French or Hausa, or we are in the 
Philippines and we want to speak it is Tagalog?
    Dr. Snyder. Mrs. Davis for five minutes.
    Mrs. Davis of California. Thank you.
    Earlier today we talked a little bit about the needs of 
having a good communications strategy, because the enemy 
obviously has one. It may not be the truth necessarily, but 
they do have one. And they are able to converse in any 
languages that are basically needed. What effort do you think 
is putting--are we having in those who are, you know, working 
with us in terms of their linguistic ability to really craft 
those messages? Are they being utilized as well as they should 
be? And do you think that, you know, are we falling short in 
that area? And would there be some way that we could get that 
more right than wrong sometimes in trying to really frame those 
messages? Because everybody agrees that we are not--I mean, we 
are really falling behind in that area.
    General Longo. Part of my duties when I was in Iraq was, my 
description was the effects coordinator for a division in the 
north central part. We were headquartered out of Tikrit. And 
one of the things that came out of my purview was exactly what 
you are talking about. How do we get the message out? And there 
are a lot of different populations that you are trying to get 
the message out to. And we would use our foreign area officers. 
We would use our civil affairs officers. We would use Iraqi 
citizens who would raise their hand and say, we want a better 
country. And they would help us get messages out in radio 
stations, getting messages out in Iraqi newspapers and 
magazines. And how well we did you could argue, but we 
certainly recognized how important it is what you are saying. 
And we really went after trying to get the message out in their 
language in the way that they are used to hearing it said and 
seeing it read.
    Admiral Holloway. If I could, ma'am, I have just recently 
deployed as the Enterprise strike group commander. We detached 
one of our ships, 325 men and women, average age of about 24, 
to circumnavigate Africa. They did 17 port visits in Africa 
prior to the Africa partnership that European Command (EUCOM) 
has underway today. And the proactive public affairs program 
tied through the theater engagement from EUCOM on down gave 
them an opportunity, a liaison with the Naval Postgraduate 
School, prior to deployment, and as we sailed from Norfolk over 
for the 12-day journey for their 6-month deployment and these 
17 port visits, we embedded the Naval Postgraduate School 
experts from the region, and we developed a proactive public 
affairs program. We found out that they didn't want the 
Enterprise there. They just wanted the destroyer. They needed 
some small engine repairmen. They needed some buoys reset. They 
needed some security operations training. And we didn't want to 
smother them. And this program fed back from EUCOM's theater 
engagement through the ships delivering in the 17 ports very 
effectively. So that is an example of how we were able to 
utilize a proactive public affairs in advance and leverage the 
education embedded and transiting over.
    General Patton. Ma'am, if I could also just very briefly, 
having just returned from my second tour in Iraq where I was in 
the north my second time, but we found very positive effects 
from shaping messages to inform and persuade the public and 
various audiences, could be, frankly, military or the citizenry 
or what have you. But we used--and we were in the north, so we 
had Shia, Sunni, Kurdish and other mixes of Iraqis that were 
our audience. And so we found that one group of--one team 
wasn't sufficient. So we contracted for native speakers from 
those various sects that comprised independent cells that 
lived--that resided within those provinces. And then they 
helped our information operations and psychological operations 
professionals to understand the audience and then help craft 
those messages in the right words, the right symbology.
    You know, if we used a certain symbology in Tikrit, it was 
misinterpreted in a Kurdish area of Ninawa Province, for 
example. So it was very important that we had those 
specifically tailored cells, native-speaking contracted folks 
that would help us. But teamed them with the psychological 
operations (PSYOP) information ops professionals to combine on 
creating those messages.
    Mrs. Davis of California. And do we have examples where 
that made a critical difference in people's understandings? I 
just think it is important that we talk about that in a way 
that----
    General Longo. Ma'am, we do. I will give you a quick 
example because I know the time.
    We would send these targeted messages. And the way we 
measured it was, how many tips were turned into the provincial 
control centers, and how many tips were turned into the police 
stations? And we could certainly measure that. And when we 
targeted appropriately, the number of tips from the average 
Iraqi citizen went up dramatically.
    General Patton. Same thing as we formed the local citizens 
now known as the Sons of Iraq, but formerly various forms of 
citizens who took arms and opposed the al Qaeda in Iraq is we 
targeted them with messaging so as to gain their support, their 
volunteerism. And messaging and money were combined I think to 
create some of that.
    Mrs. Davis of California. If I could just have a real quick 
follow-up. Have we provided the protection and the ability of 
some of those linguists and assistants to be able to get out of 
Iraq if necessary? And have we just given their families what 
they need? Because I think that, obviously, if we are using--if 
we are enabling people to be part of this effort, then we need 
to have the appropriate resources to back them up. And this is 
probably another whole issue. But I just wanted to throw that 
out there because it is one thing to ask them. It is another 
thing to take care of them.
    General Longo. A particular linguist that worked with me is 
in the United States now on a special immigrant visa, and we 
have taken care of his family as well.
    Dr. Snyder. Ms. Sanchez for five minutes.
    Ms. Sanchez. Mr. Chairman, I would just like to put on the 
record that I believe that it is just not those languages that 
are somewhat new to Americans like Arabic or Mandarin or what 
have you that are important for our forces to know, but I 
think, you know, almost any language is an important language 
to know. And I will just--as you know, Mr. Chairman, the work 
that I have been doing with the base enlargement out there with 
the 173rd in northern Italy and the fact that we had some real 
big problems with the local population there, enough so that 
the Prodi government had a vote of no confidence coming out of 
that, which leads to Berlusconi now being, to some effect, in 
as the new Prime Minister there in the last year.
    But the fact that we had military there who weren't that 
capable in the language or-slash I would say more importantly 
to understand the culture and what was going on with the local 
residents and the politicians there, really led to that effort 
and made the situation much more difficult than it had to be. 
So even a language that we would think as one that is not on 
the forefront like Arabic, you know, something like Italian, is 
still important for those in the forces to know. I think we 
should not lose sight that Spanish and Italian and French and 
German and these other languages that we take for granted as 
being more ally-type languages are still important for us to 
have.
    Dr. Snyder. I wanted to ask, and I think Admiral Holloway 
and General Lake, you said a similar kind of thought just in a 
slightly different way which I think illustrates the challenge 
that we have today.
    You said, Admiral Holloway, that the kind of skills we are 
talking about, I think your phrase was, can't be surged, if I 
heard you correctly. And that makes sense. You can't just say, 
okay, in 3 weeks, we are going to go from 100 speakers of this 
language to 1,000. Language skills don't work that way.
    On the other hand, General Lake, you made the point that--
talking about the general purpose forces--that because of the 
ops tempo, of the stress on just how busy your force is, this 
is not a great time to do the kind of language training that 
you would like to do; that you would like to have more 
redundancy, more troops who are all working to expand the 
Marine Corps. But that really illustrates the problem, doesn't 
it? These are skills that can't be surged, and yet we need them 
right now. And there is just not a good way to get out of that.
    General Lake. Yes, sir.
    Dr. Snyder. Other than the national agenda that Mrs. McGinn 
talks about.
    General Lake. But at the same time, we have to focus on 
the, to use Marine terms, we have to focus on the close fight.
    Dr. Snyder. That is right.
    General Lake. But we cannot forget about the next fight or 
the future fight. And so trying to find that is a delicate 
balancing act. So that is why we--sure, we are sending many 
more people to learn how to speak Arabic. Or now Dari and 
Pashto. And that is where our focus of our predeployment 
training is.
    But recognizing that we can't lose sight of the next fight, 
wherever that may be, that is why we are trying to do some of 
our other initiatives so that my son, Second Lieutenant Lake, 
at the basic school has now been assigned his career Marine 
regional specialty Sub-Saharan Africa. And he is coming to me 
saying, dad, you are a French speaker; I need some French 
instructional material. That is not the current fight though, 
sir.
    Dr. Snyder. We always use the phrase ``the next fight,'' 
but it could be the next humanitarian relief. It could be the 
next peacekeeping mission. It could be the next development 
mission or participation in a Provincial Reconstruction Team 
(PRT).
    General Lake. That is right.
    Dr. Snyder. Mr. McDade, you had talked about--I think your 
phrase was ``change the way airmen think,'' and I think that is 
an important concept. On the other hand, I guess I go back to--
I relate a lot of things to babies now, since I have a pregnant 
wife and a two-year-old. But it is a whole lot easier we all or 
any parent knows to have a kid start out in a car seat rather 
than have to take him at age eight, and say, no, you really do 
have to have on this car seat. And it seems like we want to get 
to the point where we don't have to change the way airmen think 
or young Marines think or young soldiers think, young sailors, 
but that from the get-go, from day one standing on yellow 
footprints at Marine Corps Recruit Depot (MCRD), there is a 
sense impressed on them, this is part of the job, that this is 
just part of it. If you don't like it, maybe you shouldn't have 
signed that enlistment contract, that having some kind of 
skill, awareness, at least an awareness that, at some point in 
your career, you are going to need these skills, it seems like 
that would be part of the way to go, not just changing the way 
airmen think after they come in. And I am probably over-reading 
what you said. But go ahead and comment if you would.
    Mr. McDade. I appreciate the opportunity to clarify because 
really when we take a look at this development opportunity, we 
do it over the continuum of an airmen's life cycle. So for 
officers, for example, the United States Air Force Academy has 
a very robust culture and regional expertise area which starts 
right at the beginning. We are doing the same sorts of things 
but don't have quite as much control over some of the 
curriculum in Junior Reserve Officer Training Corps (JROTC). 
So, on the officer's side, it is very, very clear. Enlisted 
force, it is a little bit different issue, depending on how we 
use them, as well you know. So really the main focus right now 
is on the officer's side.
    Dr. Snyder. I wanted to--and some of you--you haven't heard 
me because none of you I think have testified here before. But 
I have thrown out somewhat cavalierly through the years, but I 
am actually thinking more and more it is not a bad idea, this 
idea of using boot camps, as somebody who went through a Marine 
Corps boot camp. And I was talking with a young officer who has 
Iraq war experience. And we were talking about, what is the 
nature of the job for a lot of the fighting troops? Which is, 
they can be driving through a very tense area in terms of what 
is going on sniper alleys, improvised explosive devices (IEDs), 
and then arrive at a tea party, a social event, and then you 
have to pull out--disregard all the fear in your belly and 
enjoy being around there, say hello to everyone, and then that 
goes by, and you get back in the vehicle, and you are a fighter 
again. And the reason I mention that, I have often thought 
that, again, starting from the beginning, and you know, there 
is not much free time in boot camp was my recollection except 
at meals time. And that maybe that if you had native speakers 
there and you are expected to come off from marching and you 
know all those kind of things and being castigated in a variety 
of different ways by your Drill Instructor (DI), but then you 
arrived at lunch and were expected to greet politely and 
respond, and it could actually be a very pleasant experience 
with whoever it is, whatever languages we decide, and each 
platoon could be different. And then lunch is over, whatever 
length of time that is, 20 minutes or 40 minutes, and boom, you 
are back to being trained for a warfighter. That is not unlike 
the experience of our troops in both Iraq and Afghanistan today 
who have those moments of fighting interspersed with those 
moments of needing social and cultural skills. Do any of you 
have any comment on that? I don't expect you to. Okay. That is 
fine.
    Mrs. Davis, any other questions?
    Mrs. Davis of California. Just a few questions. In terms of 
the officers, do you believe that there are any incentives that 
we are not offering right now that we could be offering, 
particularly for flag officers, that we should be considering?
    Mr. McDade. Well, one of the things that I think is 
important, when we talk about the officer promotion system, in 
the Air Force, our charge to the board is to make sure that we 
are promoting culturally competent airmen, as I mentioned to 
you before. That perhaps is the most important incentive you 
can possibly give to a military officer, to know that is 
something that the promotion boards are considering. So I think 
that is a very powerful incentive now. The only thing that I 
would say on the language side is, we in the Air Force are 
finding very much the organizing principle for our thinking is 
the willing and the able. What we are finding is when an 
officer, given all the other things they are being asked to do, 
is told to learn a language on their own time after a 12-hour 
workday, it is only a very small number that are both willing 
and capable of doing that, that will see it through to 
fruition. So there we are creating incentives but only to a 
targeted few officers that are both willing and able to do so.
    Admiral Holloway. Ma'am, I think as we begin to value and 
have valued this LREC, LREC in the Navy, this process, that 
that will incentivize the individuals when the board precepts 
put that language in as he mentioned and inspire those early in 
the careers. As they look upward to their career paths, they 
will see the milestones that must be met. We have joint 
requirements, warfighting capability requirements. We have our 
masters degrees, which is to try to get an overseas tour. So 
you are fitting all this in a career. But until you really see 
people that begin to show up in those positions with those 
skills that have been awarded with those, it doesn't gain a lot 
of traction. And so just like women in the Navy, we want them 
to have mentors and people to look up to, people that have had 
families and successful careers. So we have got to put our 
money where our mouth is. We have got to show it in our 
precepts, in the precept language and give guidance to the 
board members; that is a value-added skill and consider that in 
your vote.
    Mrs. Davis of California. I think that is consistent across 
the board. I mean, people, for example, in California, know 
that you can't get a job in many areas unless you are 
bilingual. You just don't bother to apply. And I think that 
there may be at some point that kind of emphasis put on it. So 
I think we are looking to you for any guidance, any assistance 
that we can write into some of the next proposals that come 
forth.
    And one of the issues that I remember mentioned before, is 
there were no new authorities that were needed, but there are 
additional fundings. So, as we look to 2010, you mention, even 
the high school programs, increased number of grants, well, you 
know, there probably are a lot more programs out there that 
would be very excited about being part of this, but perhaps, 
you know, there won't be enough funding. I mean, if that is a 
high priority, I think if it is a national security priority, 
then maybe you know we need to incentivize many more school 
districts to get involved, and they can be large, small. But 
you know, California, for example, is not in that program at 
all. And my goodness, we certainly have plenty of bilingual, 
trilingual speakers in California who might be interested. 
Maybe they are not interested in serving in the service. Maybe 
that is not their first interest. But if they see there is some 
additional ways that they can use their talents and perhaps go 
into the service, but at least to get engage in that way, I 
think that makes a huge difference in what we can do.
    I mean, this has to be monumental, and we know that. You 
know, in order to make these kinds of changes, it has just got 
to be a whole different mindset, not just for the soldiers, as 
you are mentioning, for the airmen but the country, us to have 
a different mindset about this. And we are not going to get 
there by counting on school districts with their limited 
budgets, where they are cutting out everybody, you know, all 
their support staff and nurses and everybody else. I know. I 
was a board member. You know, I tried to do that. And in the 
end, you know, it always fell off the list.
    Mrs. McGinn. May I make a plea for help?
    Mrs. Davis of California. Sure. I was looking for that.
    Mrs. McGinn. Well, it is not a plea for help for DOD. We 
have been engaged in the National Security Language Initiative 
that the President launched in January 2000, I think, with the 
Department of State, Education, Director of National 
Intelligence, us. The Department of Education has not received 
the funding that it has requested in order to implement some 
elements of the program that they were looking to implement to 
include, I believe, some of the K-through-16 programs, the 
teacher corps, because one of the problems we have is that 
there aren't enough foreign language teachers.
    Mrs. Davis of California. Instructors, exactly.
    Mrs. McGinn. And so if there is any way you could help with 
that, because State and DOD and Director of National 
Intelligence (DNI) fully funded the National Security Language 
Initiative, so if you could help with that, that would be 
important to us.
    Mrs. Davis of California. Okay. Thank you.
    Dr. Snyder. The next hearing that we are doing on this 
topic is on September 23, and it is to have the people from the 
civilian side of our country that are funded by DOD money. And 
George Miller, who is the chairman of our Education and 
Workforce Committee, is planning to participate in that hearing 
with us. He and I have been talking about this topic for some 
time. So your folks may have an opportunity to make that plea 
also.
    I wanted to ask you, Mrs. McGinn, you mentioned something 
about ROTC and the languages. Tell me again what you said. I 
heard you said that they are not teaching the languages that 
you really need. Is that what you said? Tell me what you said 
and amplify on it, please.
    Mrs. McGinn. Yes. That is correct. I can't remember the 
numbers right now. It is in my testimony. But there are maybe, 
I think, 1,400 ROTC locations where they teach languages. But 
only a very few of them teach the languages that are the ones 
important for national security. I do take Congresswoman 
Sanchez's point that we need all languages. But, of course, we 
are interested in Arabic and Mandarin Chinese and some of 
those. So what we have done is we have put together a grant 
program for ROTC programs where we award money to ROTC, to 
universities--pardon me--with ROTC to develop programs in these 
difficult languages. We are not really telling them how to do 
it. What we are doing is letting them come forward with ideas 
so that we can pick up best practices. We have awarded 12 
grants. We will eventually, at the end of our program in a 
couple of years, have awarded 50 grants to universities for the 
development of language programs in ROTC.
    Dr. Snyder. Let me see if I got this right. So you have a 
ROTC program at a fairly major university, and you could go to 
your ROTC guys and say, we really need to you make Mandarin, 
but it is not an offer to the college?
    Mrs. McGinn. Right. So part of the grant would be for the 
college to be able to develop the Mandarin program, and then we 
would like to see how that program works and how interested the 
ROTC cadets are in studying Mandarin.
    Dr. Snyder. Which is another issue. And that would not be a 
program that the college would obviously just develop just for 
the ROTC students. They would just have to have a Mandarin 
program that would have credibility. And it goes back to this 
whole national agenda that you were talking about.
    Ms. Sanchez has gone. But I am going to quote her. I am 
going to talk about her anyway, General Longo, because she and 
I were talking during the break. And she may have mentioned 
that she did some studying for a year, living in Egypt and did 
some Arabic language studies early on. You mentioned early, I 
think in one of your statements, that one of the problems is 
the languages we need are the hard languages, and you mention 
Arabic. She considers Arabic not to be a hard language. It may 
be a scary language for Americans. But she says it is a very 
phonetic language. The alphabet works when Americans get in and 
try it. It isn't that difficult. I think that is some of our 
experiences.
    But that is part of our bias that Mrs. McGinn is talking 
about. We get afraid of some of these languages. And the grade 
schools get afraid of them, and the high schools get afraid of 
them, and the colleges are afraid of them.
    Go ahead, General Lake.
    General Lake. No, sir. I think the Congresswoman is 
probably an example--I don't think anybody has tested her--but 
I think she is probably a good case in point of someone who 
probably has a strong aptitude for languages.
    Dr. Snyder. I will tell her you are going to recruit her.
    General Lake. More than happy to, sir.
    Dr. Snyder. Sign her up.
    General Lake. She has an aptitude. And that is what we try 
to do with our--as we categorize the languages in terms of 
level of difficulty, what we try to do is send people who have 
a greater aptitude for languages. We try to focus them on the 
harder languages because they have a greater likelihood of 
success. And so we have a test that measures aptitude, and it 
is not perfect, but at least it is a good indicator. But it is 
also an indicator, and Congresswoman Sanchez kind of meets that 
criteria; she speaks another language. I have found that if you 
speak one foreign language, it doesn't matter what it is, it is 
usually easier for you to learn another language, and 
particularly if you learn that foreign language as an adult 
because you have sort of gone through the process. Okay. This 
is what I have to do, and you can kind of template that even if 
the language is significantly different.
    Dr. Snyder. Is there anything else that any of you wanted 
to bring out here that you were hoping we would ask about or it 
occurs to you, you wanted to share with us that might be 
helpful as we are sorting through this? No? Any final comments?
    Mrs. Davis of California. Mr. Chairman, may I just add two 
things to the ROTC? Because having met with the program in San 
Diego State, I think the two things that were really important 
to the student, number one was having the time. The difference 
was that all they were asked to do was study the language. They 
weren't asked to study math and science and everything else. 
That made a difference. I know it does generally for kids who 
complete summer school programs; they usually do better because 
they don't have so many things going on. And the promise of an 
immersion program in an overseas location. I think if we can 
get those two together, we are going to see students do fairly 
well.
    General Longo. If I might make a short comment. In many 
more years ago than I am willing to admit, I was an ROTC 
scholarship in a university in North Carolina. And it was not 
an option to me to do an overseas exchange, to go to a 
university in Germany, France, pick a country, because my ROTC 
scholarship would not pay for it, and I could not pay for it 
myself. That has changed. ROTC is now underwriting those 
programs with their scholarships, and I think that is a move in 
the right direction now.
    Mrs. Davis of California. Sorry. I just wanted to be sure I 
got that in.
    General Patton. Dr. Snyder, to add one thing, you asked 
earlier about developing a surge capacity. Surely it is not the 
end all and be all. But one thing that is under development is 
a creation of an expeditionary workforce within the Department 
of Defense. The purpose of that workforce is to broaden the 
capabilities we have, not only in uniform but out of uniform, 
within our DOD civilian force to surge to meet certain work 
requirements. Specifically, I am very interested in developing 
acquisition civilian professionals that are expeditionary and 
in intelligence because those are two surge capabilities that 
currently the Joint Warfighting Force wants and is in short 
supply. Language would certainly be another one. So I am going 
to take that back and add that to the mix as we work with our 
Office of the Secretary of Defense (OSD) counterparts to add 
some refinement to that expeditionary workforce, because I 
think language would certainly be an area where we could 
leverage our professional civilians in the Department of 
Defense for that.
    Dr. Snyder. If we were to have a similar kind of a hearing 
at this time next year or if Mrs. Davis were to do it as the 
chairwoman of the Military Personal Subcommittee, Mrs. McGinn, 
General Patton, do you think we will have seen dramatic 
improvement? Will that be an appropriate time for us to revisit 
this topic?
    Mrs. McGinn. I would hope that you would see dramatic 
improvement. I think the improvements that we have seen in the 
last three years----
    Dr. Snyder. Progress may be a better word.
    Mrs. McGinn. They have been extremely dramatic. I don't 
know if you will see as dramatic an improvement. I would hope 
that we would have a better sense of corporately what we need 
to do in terms of the general purpose forces and how we would 
handle the issues of requirements and the number of people in 
the force who have language capability. I would hope that you 
would see that.
    Dr. Snyder. Well, I want to thank you all for being here. 
And as a formal question for the record, if you--and if you 
have anything that you would like to add that comes to mind or 
you have forgotten about or you think would be helpful to us, 
feel free to send it to us, and it will be made part of the 
record and distributed to the other Members. And we appreciate 
your service. And we appreciate the work you are doing. And as 
Mrs. McGinn pointed out, you really are having to work on 
something that we--all of us, whether military or civilian, 
have a responsibility for, whether it starts in kindergarten, 
and because we haven't met those responsibilities, then you all 
having the jobs that you have. We appreciate your service. And 
thank you for your time today.
    The hearing is adjourned.
    [Whereupon, at 4:28 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           September 10, 2008
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 10, 2008

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 10, 2008

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. The Chairman's Language and Regional Expertise Planning 
Instruction, CJCSI 3126.01, states that ``[l]anguage skills and 
regional expertise are critical `warfighting skills' that are integral 
to joint operations.'' Similarly, DOD Directive 3126.01 states: ``[i]t 
is DOD policy that: . . . Foreign language and regional expertise be 
considered critical competencies essential to the DoD mission and shall 
be managed to maximize the accession, development, maintenance, 
enhancement, and employment of these critical skills appropriate to the 
Department of Defense's mission needs.'' What is the significance of 
identifying these skills as critical warfighting skills or competencies 
in terms of organizing, training, and equipping the force? Please 
identify the other critical warfighting skills or competencies. Are 
language skills and regional expertise now considered to be on par with 
those other skills and competencies?
    General Longo. Identifying culture and foreign language skills as 
critical warfighting skills is an acknowledgement of the importance we 
place upon them. Today's Army Planners understand the necessity to 
include cultural and foreign language skills in all our contingency 
plans and operations. Operations in today's environment require our 
forces to operate with coalition partners and the local nationals in a 
variety of diverse languages and cultures as an expeditionary force.
    In terms of organizing, training, and equipping the force, the Army 
has recognized the importance culture and language skills play in 
several of our title 10 U.S. Code responsibilities. As an example, we 
have organized and placed 09L (Interpreter/Translator) units in the 
force structure and plan to expand these skilled linguists from CENTCOM 
to PACOM and AFRICOM areas of responsibility. The Army has also 
identified and coded language positions in our general purpose forces 
outside of the intelligence and FAO communities (e.g., truck drivers, 
aircraft crew chiefs, and flight medics attached to Headquarters, U.S. 
Army South have a Spanish language requirement). In terms of training, 
we have significantly improved: our training capability at the Combat 
Training Centers with role players/evaluators; the availability of 
online foreign language training software and materials from DLIFLC and 
Rosetta Stone; increased the Mobile Training Team education to units 
before deployment; and established the TRADOC Culture Center at Fort 
Huachuca, AZ. Finally, the Army has equipped our forces with 
translator/interpreter equipment (Sequoia) and various graphical 
training aids.
    The Army views culture and foreign language competence in the 
general force as an important enabler for the execution of core 
individual and unit warfighting tasks as well as any other 
competencies. The Army needs different levels of capability in foreign 
language and culture in the general force versus the specialists in the 
force (e.g., Foreign Area Officer, Civil Affairs, Special Forces, 
Psychological Operations, Information Operations, linguists). The 
competence required for our specialists is critical to the planning and 
execution of operations. The competence required in both groups will 
primarily drive our education and training. The primary competency for 
the U.S. Army is the application of combat power. In order to execute 
our doctrine of full spectrum operations, we believe that culture and 
foreign language competence must become a core competence.
    Dr. Snyder. Since we are planning to employ general purpose forces 
to carry out irregular warfare missions like building partner capacity, 
conducting counterinsurgencies and stability operations--missions that 
have been traditionally conducted by special operations forces--should 
we be looking at the way special operations forces acquire and maintain 
their language, regional, and cultural skills as a model for doing the 
same with the general purpose forces?
    General Longo. During the development of the Army's Culture and 
Foreign Language Strategy, we looked at the special operations forces 
model in order to leverage ideas or approaches that could be applied to 
the general purpose forces. This included the special operations 
community's involvement in the initial development of the strategy to 
take advantage of their culture and foreign language expertise and to 
account for special operations in the strategy as culture 
professionals.
    Both the Army Culture and Foreign Language Strategy and the special 
operations forces model are designed to serve current and future 
operations. However, the strategy for the general purpose forces 
requires a much broader set of culture and language capabilities than 
that of the regionally focused special operations organizations.
    Dr. Snyder. Has the Language Roadmap or your Service's strategy for 
foreign language, cultural awareness and regional expertise changed the 
way you are recruiting, aside from the heritage speakers program? Would 
someone with foreign language skills be considered preferable to 
someone without them, all other things being equal? Are individuals 
with language skills placed on career paths or do they receive 
assignments that use those skills?
    General Longo. The Army has changed our strategy for recruiting 
foreign language, cultural awareness, and regional expertise. This 
change began with the 09L Heritage Speaker Interpreter/Translator in 
2006, which is now been converted to a permanent military occupational 
specialty. The success of 09L program has led us to expand its focus 
beyond the CENTCOM languages into PACOM and AFRICOM. In addition to the 
09L expansion, we are initiating several other programs that will 
enable the Army to access more language and culturally enabled Officers 
and Soldiers.
    The Language Roadmap has changed the way we track language 
capability in the Army. As a direct result of the Roadmap, the Army is 
currently conducting a Language Self Assessment which to date has had 
over 83,000 responses of with roughly 53% self-identifying that they 
speak a foreign language; however, what we do not know is the level of 
their proficiency. We are trying new incentives to complete this task 
for the whole force such completing the survey a part of Initial 
Military Training and having the Human Resources Commander contact 
redeploying Commanders during the Rest Phase of Army Force Generation 
(ARFORGEN) to encourage completion.
    On August 8, 2008, the Army implemented an ROTC recruiting pilot 
program that awards Critical Language Incentive Pay (CLIP) for cadets 
that study Arabic, Chinese-Mandarin, Hausa, Indonesian, Korean, Pashto, 
Persian-Dari, Persian-Farsi, Swahili, or Urdu. To date, approximately 
130 students have expressed their intent to participate. This pilot 
program will allow the Army to evaluate whether the incentive will 
yield more junior officers with more foreign language capability in 
strategic languages.
    Twelve universities are currently participating under the National 
Security Education Program (NSEP) grant to develop and teach strategic 
language courses for ROTC cadets. During Spring-Summer 2008, four 
universities of interest (San Diego State University, Indiana 
University, University of Mississippi, and University of Texas at 
Austin) taught courses to 58 cadets in either Arabic, Persian, Russian, 
Chinese, Pashto, or Korean.
    A similar emphasis has also occurred at the United States Military 
Academy where currently 100% of all West Point cadets must take a 
foreign language. These requirements have recently doubled from two to 
four semesters of mandatory instruction.
    All things being equal, someone with foreign language skills would 
be preferred to someone without--it is easier to turn a linguist a 
Soldier than to turn a Soldier into a linguist. Commanders understand 
the importance of language and cultural knowledge for the general 
purpose force and view cultural knowledge as the more valuable, 
sustainable, and transferrable of the two.
    Individuals serving in language-coded billets have established 
career paths and receive assignments that use those skills. These 
language-coded billets include Interpreter/Translator, Cryptolinguists, 
Human Intelligence, Area Intelligence, Counter Intelligence, Signals 
Intelligence, Foreign Area Officers, Special Forces, Civil Affairs, and 
Psychological Operations military occupational specialties/functional 
career fields.
    Dr. Snyder. We know that there are established means for assessing 
levels of foreign language proficiency. How will you measure and assess 
cultural awareness proficiency? Please provide examples.
    General Longo. The Army's goal is to develop cultural capability in 
our leaders over the course of their career. The primary emphasis is on 
developing the knowledge and application of a general framework for 
understanding any culture, then reinforcing the ability to apply this 
culture general competence through the study of the culture of a 
particular region or country. In the later stages of career 
development, the individual will develop a deeper understanding about 
the culture of a particular region or country.
    In order to measure and assess cultural proficiency, the Army is 
exploring utilization of three proficiency levels: cultural awareness, 
cultural understanding, and cultural expertise. They describe a level 
of performance that culture education and training are designed to 
achieve in both cross-cultural competence (culture general competence) 
and regional competence (culture specific competence).
    The first level of proficiency, cultural awareness, describes 
Soldiers who have foundational cross-cultural competence and a minimal 
level of regional competence. The second level of proficiency, cultural 
understanding, describes Soldiers and leaders with well developed 
cross-cultural competence and a comprehensive level of regional 
competence. These first two proficiency levels will apply predominantly 
to the general purpose force. The third level of proficiency, cultural 
expertise, describes culture professionals and leaders who possess an 
advanced level of cross-cultural competence and an advanced and 
sophisticated level of regional competence. While cultural expertise is 
mainly the realm of specialists, this proficiency level may also be 
attained by Soldiers who devote a significant amount of time to the 
study of a region and country, and language over the course of their 
career.
    The Army envisions developing a means to measure these proficiency 
levels that is tied to the performance of individual and collective 
warfighting tasks for which culture capability is an enabler. The best 
minds of practitioners and theoreticians in the U.S. Government and 
academia are currently wrestling with how to measure and assess 
cultural awareness proficiency. I recently participated in a Cross-
Cultural Communication Roundtable at the University of Maryland 
Conference Center, to discuss what constitutes cross-cultural 
communication, why it is important in today's world, and how to lay the 
foundation for building, sustaining, training, and measuring cross-
cultural competency.
    Dr. Snyder. Lower level language capabilities are being more fully 
incorporated into the general force, yet the current testing is 
designed for language professionals, who have higher level language 
capabilities. How do you plan to evaluate language training provided to 
the general purpose forces? What measures or tests will be used? What 
challenges are associated with evaluating language capabilities for the 
general purpose force?
    General Longo. The Defense Language Proficiency Test (DLPT) is the 
current vehicle for measuring foreign language proficiency used by the 
Department of Defense. However, proficiency is only required of our 
language professionals who must have a broad-based knowledge that allow 
them to assimilate into a society, totally immersed in its language. 
The Army recognizes the DLPT is inappropriate for the general purpose 
force and is currently staffing development of performance-based 
testing that will provide a more accurate measurement of lower-level 
language capabilities. In the end, we want to be able to evaluate a 
soldier's ability to do his job or task in the target language (e.g., 
evaluated on his ability to man a check-point, not listen to and 
understand a local news broadcast).
    The Army continues to develop language capability in the general 
purpose force for the following purposes:

    1.  Providing survival level skills prior to deployment.

    2.  Providing basic level foreign language instruction for an 
individual soldier to communicate in a foreign language, in order to 
effectively interact with people who speak that language.

    3.  Developing leaders who are able to adapt to functioning in a 
different foreign language by virtue of having learned another foreign 
language.

    4  Providing the capability to understand and use language tools 
(e.g., automatic translation devices, interpreters).

    The Army uses the above language capabilities as tools to prepare 
for, execute, and evaluate training scenarios at Combat Training 
Centers (CTCs) and to a limited extent, at home station and 
mobilization sites. Every deploying Brigade Combat Team receives a CTC 
rotation. During CTC rotations, heritage/native speaking role players 
provide evaluations on individual and unit language and cultural skills 
while performing warfighting tasks. Role players provide valuable 
feedback and insight into the effectiveness of unit interactions with 
local populations while accomplishing their tasks. The evaluation 
assesses whether a Soldier uses basic language skills and exercises 
cultural sensitivity to effectively perform their tasks.
    The challenge associated with evaluating language capabilities for 
the general force will be in developing and tailoring the tests that 
will apply to the diverse set of tasks that our Soldiers must perform 
to support mission accomplishment for full spectrum operations in the 
desired languages. This will be no small task. For example, DLIFLC has 
developed language survival kits in 44 languages that are designed to 
familiarize the general purpose force with situations covering Civil 
Affairs, Medical, Air Crews, Cordon & Search, Force Protection, 
Military Police, and Public Affairs. Each one of these situations would 
require several tests to evaluate performance.
    Dr. Snyder. Will a unit's readiness reporting include indicators 
reflecting its foreign language skills readiness and cultural awareness 
readiness?
    General Longo. The Army's readiness reporting of a unit is based 
upon the organization's Modified Table of Organization and Equipment 
(MTOE). The MTOE includes, as part of position skill requirements, the 
Military Occupational Specialty (MOS) and Additional Skill Identifier 
(ASI) required by pay grade. In addition, a Language Identification 
Code (LIC) requirement is annotated for each position that requires a 
language skill. LIC is measured as a data point in the Army's readiness 
reporting system, but does not factor into the calculation of the 
unit's Personnel Readiness Level.
    The Unit Status Report (USR) does not specifically address cultural 
awareness; however, commanders may provide comments about an assessment 
of cultural awareness training as part of the unit's training 
assessments and Mission Essential Tasks. Furthermore, many language and 
cultural skills are embedded in other tasks that are specifically 
addressed (e.g., a commander who rates Force Protection as a ``T'' (for 
Trained) has effectively also assessed language and cultural skills 
required for interaction with the local population as a ``T'' since 
they are embedded tasks). Since cultural awareness training is specific 
to the particular geographic region to which the unit is deploying, 
measuring cultural awareness in the USR as a generic metric is not 
applicable. However, units undergo specific training prior to 
deployment to a specific geographic region. This pre-deployment 
training is assessed as an integral part of the training plan for each 
unit.
    Dr. Snyder. Is foreign language proficiency a consideration for 
promotion outside of the linguist or foreign area officer career paths? 
Wouldn't making some set level of foreign language ability a criterion 
for advancement to general or flag officer and senior non-commissioned 
officer create a pipeline for the future?
    General Longo. Officers are promoted based upon their performance 
and demonstrated potential for future service. Foreign language 
proficiency is an important and valued skill for any Officer, and the 
Army clearly recognizes the applicability of the knowledge, skills, and 
abilities that language proficiency offers. The Officer Record Brief 
(ORB) is the first document in an Officer's record that is reviewed by 
a promotion or selection board panel. Language training and proficiency 
are among the most prominent entries on the ORB. However, they 
represent only part of the criteria that board members consider for 
officers in career fields that do not require foreign language 
proficiency.
    While language training and proficiency are important, the Army 
does not use foreign language ability as a primary determinant when 
evaluating commissioned and noncommissioned officers' fitness for 
greater responsibility. The Army is, however, committed to improving 
this valuable skill and has implemented a number of incentives and 
funded language programs to improve the language capability.
    Dr. Snyder. How are you focusing assignments for the new FAOs, 
RAOs, RAS, PAS, and other regional experts to gain return on the 
investment and continue to develop their skills--will they get lost in 
the personnel system?
    General Longo. The Army is currently conducting a Chief of Staff of 
the Army (CSA) directed review of its Foreign Area Officer (FAO) 
program to ensure that it remains the program to emulate within DoD and 
reaffirm that FAOs are of critical importance during this era of 
persistent conflict. The Army also wants to make certain that those 
officers who have worked hard to become FAOs are being recognized for 
their efforts. The Army has a single track/singularly focused FAO 
program with a FAO Proponent Division on the Army Staff and dedicated 
Human Resources Command assignment officers who ensure Army FAOs are 
assigned to positions which will maximize the use of their language 
skills and unique training. Foreign Area Officers rarely serve in 
positions outside of the FAO career field. The Army assesses that 98% 
of Army FAOs currently serve in FAO billets or positions that require 
their unique language and cultural expertise and continue to be in high 
demand within the Army and Joint Community. FAO assignments are closely 
monitored and the Army's FAOs are not at risk of being ``lost in the 
personnel system.''
    Dr. Snyder. The Chairman's Language and Regional Expertise Planning 
Instruction, CJCSI 3126.01, states that ``[l]anguage skills and 
regional expertise are critical `warfighting skills' that are integral 
to joint operations.'' Similarly, DOD Directive 3126.01 states: ``[i]t 
is DOD policy that: . . . Foreign language and regional expertise be 
considered critical competencies essential to the DoD mission and shall 
be managed to maximize the accession, development, maintenance, 
enhancement, and employment of these critical skills appropriate to the 
Department of Defense's mission needs.'' What is the significance of 
identifying these skills as critical warfighting skills or competencies 
in terms of organizing, training, and equipping the force? Please 
identify the other critical warfighting skills or competencies. Are 
language skills and regional expertise now considered to be on par with 
those other skills and competencies?
    Mr. McDade. The Air Force views cross-cultural competence (3C) as 
both a critical force enabler and warfighting skill. It is a 
cornerstone to the Air Force Culture, Region and Language Program and 
embedded throughout the Air Force Institutional Competency List (ICL). 
The ICL includes Employing Military Capabilities, Fostering 
Collaborative Relationships, Communicating, Global, Regional and 
Cultural Awareness, Strategic Communication, Building Teams and 
Coalitions and Negotiating.
    There are many Air Force warfighting skills which enable the Air 
Force's mission to fly, fight and win in air, space and cyberspace. 
Through Global Vigilance, Global Reach and Global Power the Air Force 
provides the Joint Force Commander a range of capabilities for success. 
Cross-cultural skills, which include language and regional skills are 
an integral capability required for success as a force enabler and as a 
warfighter skill. But, just like every Airman is not a pilot, every 
Airman is not a linguist. Therefore, it will be dependent on the 
requirement and mission to determine which warfighting skills are the 
most critical.
    Dr. Snyder. Since we are planning to employ general purpose forces 
to carry out irregular warfare missions like building partner capacity, 
conducting counterinsurgencies and stability operations--missions that 
have been traditionally conducted by special operations forces--should 
we be looking at the way special operations forces acquire and maintain 
their language, regional, and cultural skills as a model for doing the 
same with the general purpose forces?
    Mr. McDade. The Air Force Culture, Region and Language (CRL) 
Program takes a deliberate approach to inculcating general purpose 
forces (GPF) based on Air Force-unique mission requirements with cross 
cultural competence (3C), which include language, regional and culture 
ability. Specifically, the Air Force's goal in this respect is have:
    Airmen Developed and Sustained with Sufficient Cross-Cultural 
Capacity: Airmen with appropriate levels of cross-cultural knowledge, 
skills and attitudes who are able to meet Air Force mission needs and 
are able to surge for emergent requirements.
    This approach allows for specific targeted development of GPF who 
will be engaged in irregular warfare missions, similar to targeted 3C 
development of Airmen. Additionally this program is based on the data 
and analysis gleaned from a RAND study and the scholarly work conducted 
by the Air Force Culture and Language Center at Air University. The Air 
Force determined that cross-cultural competency was a capability all 
Airmen required and that we needed to refocus our efforts to provide 
language and regional skills to targeted Airmen. The approach is based 
on the Air Force's planned model for Expeditionary Skills Training. 
This model (figure 1) provides targeted education and training to 
Airmen based on mission set and expeditionary requirements. Airmen will 
be targeted, beginning at accessions points and throughout their 
career.

          Figure 1: AF Expeditionary Skill Training (Notional)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 



    Dr. Snyder. Has the Language Roadmap or your Service's strategy for 
foreign language, cultural awareness and regional expertise changed the 
way you are recruiting, aside from the heritage speakers program? Would 
someone with foreign language skills be considered preferable to 
someone without them, all other things being equal? Are individuals 
with language skills placed on career paths or do they receive 
assignments that use those skills?
    Mr. McDade. The Air Force Recruiting Service makes every effort to 
match heritage speakers to linguist positions. If an individual is a 
heritage speaker, they're offered an opportunity to take the Defense 
Language Proficiency Test (DLPT) to determine their proficiency level. 
If they score a minimum of 3/3, we seek to match them to language duty, 
if available.
    Airmen in language inherent billets, to include cryptolinguist and 
regional affairs strategists, are placed on career paths that utilize 
their skills. In accordance with the AF Culture, Region and Language 
Program, language enabled Airmen will be provided language sustainment 
opportunities and utilized in language assignments based on mission 
requirements.
    Dr. Snyder. We know that there are established means for assessing 
levels of foreign language proficiency. How will you measure and assess 
cultural awareness proficiency? Please provide examples.
    Mr. McDade. The Air Force's Culture, Region and Language Strategy 
will guide the development and measurement of four elements of Airmen's 
cross-cultural competence (3C): knowledge, skills, attitudes and 
learning approaches. Knowledge will be assessed using standard 
cognitive measures integrated into accessions programs and 
expeditionary training. These will be delivered to and measured in all 
Airmen through in-residence and on-line classes. Skills, particularly 
communicating, negotiating and relating across cultural differences, 
will be assessed primarily through exercises in role playing scenarios 
and simulations. Attitudes will be measured using scientifically valid 
psychometric instruments. Learning approaches will be assessed through 
capstone exercises, simulations, individual and leader surveys. Note 
that the 3C approach is broadly applicable to a variety of cultures and 
regions, rather than just one specific group or place, and is therefore 
well suited to Air Force requirements.
    Dr. Snyder. Lower level language capabilities are being more fully 
incorporated into the general force, yet the current testing is 
designed for language professionals, who have higher level language 
capabilities. How do you plan to evaluate language training provided to 
the general purpose forces? What measures or tests will be used? What 
challenges are associated with evaluating language capabilities for the 
general purpose force?
    Mr. McDade. The Defense Language Proficiency Test (DLPT) System is 
the only DoD validated measure of language proficiency, based on the 
interagency language roundtable scale. Airmen must attain a valid score 
in order to qualify for foreign language proficiency pay. Therefore all 
Airmen will be evaluated for language ability using the DLPT.
    As the Air Force progresses with developing Airmen-Statesmen, 
according to our Air Force Culture, Region and Language Program, there 
will be challenges to ensure the DoD has sufficient capability to 
assess speaking proficiency as well as proficiency at the sub 2/2 
(reading/speaking) level. With the expansion of the GPF into irregular 
warfare, speaking ability, tested through an Oral Proficiency 
Interview, will be more in demand. The Air Force will continue to work 
with the Defense Language Steering Committee and the Defense Language 
Institute Foreign Language Center to articulate requirements and ensure 
availability of interviewers, especially in low density languages.
    Dr. Snyder. Will a unit's readiness reporting include indicators 
reflecting its foreign language skills readiness and cultural awareness 
readiness?
    Mr. McDade. The DoD has developed, for use by the Services and 
Combatant Commands, the Language Readiness Index. The index will 
analyze service language proficiency and capability against Combatant 
Command requirements.
    Dr. Snyder. Is foreign language proficiency a consideration for 
promotion outside of the linguist or foreign area officer career paths? 
Wouldn't making some set level of foreign language ability a criterion 
for advancement to general or flag officer and senior non-commissioned 
officer create a pipeline for the future?
    Mr. McDade. Foreign language proficiency is implicitly a 
consideration for promotion in all career paths within the Air Force. 
Air Force guidance to promotion board members, in-line with Deputy 
Secretary of Defense policy includes the following phrase: ``Experience 
and education that contribute to broader cultural awareness and enable 
better communication in a global operating environment are crucial 
underpinnings to support strategic national interests.''
    The Air Force promotion system is designed to develop a diverse and 
capable Air Force leadership. There is no ``single'' trait that is a 
criterion. At the same time, the Air Force recognizes the need for 
Senior Leaders who are Airmen-Statesmen, with the capability to 
influence the outcomes of US, allied and coalition operations and to 
maximize operational capabilities by Building Partnership Capacity. 
This is achieved through A) the Developing Leaders goal of the Air 
Force Culture, Region and Language Program; B) making Global, Regional 
and Culture awareness, Communications, Building Teams and Coalitions, 
and Negotiating part of the Air Force leadership development policy; 
and C) Promotion Board Precepts.
    Dr. Snyder. How are you focusing assignments for the new FAOs, 
RAOs, RAS, PAS, and other regional experts to gain return on the 
investment and continue to develop their skills--will they get lost in 
the personnel system?
    Mr. McDade. Both the Air Force International Affairs Specialist 
(IAS) program and Political-Military Affairs Specialist (PAS) program 
target future senior leaders to prepare them with the necessary 
political-military education and real world experience they will need 
as leaders at the highest level of responsibility in the Air Force and 
Joint arenas. The IAS program ensures a return on investment and 
continues to develop Regional Affairs Specialist (RAS) skills through a 
multi-faceted approach. The program is unique in that designated RAS 
Officers are dual-tracked between their FAO-type assignments and their 
primary Air Force specialty. This rotational assignment policy serves 
to provide a level of expertise not only to the specialized FAO 
community, but also to the GPF when RAS officers return to their 
``line'' unit. This expertise inter-change pays dividends to all 
involved since a RAS officer stays current in their primary specialty, 
while also providing their functional communities with highly 
specialized culture, regional and language capability and expertise. 
Where possible, non-RAS assignments will also provide added RAS 
development, such that an assignment in a primary career field-related 
position occurs within the RAS geographic area of specialization. 
Additionally, there are language and regional enhancement programs 
designed to improve RAS officers' expertise, to include tutoring and 
language and area studies immersion to continue RAS skills development. 
For officers in the PAS program, we send select officers to training in 
preparation for a specific position as a PAS officer. Once an officer 
becomes a RAS or PAS officer, they receive a skill code designating 
them as such and we use these skill codes to track them throughout 
their Air Force career.
    Dr. Snyder. The Chairman's Language and Regional Expertise Planning 
Instruction, CJCSI 3126.01, states that ``[l]anguage skills and 
regional expertise are critical `warfighting skills' that are integral 
to joint operations.'' Similarly, DOD Directive 3126.01 states: ``[i]t 
is DOD policy that: . . . Foreign language and regional expertise be 
considered critical competencies essential to the DoD mission and shall 
be managed to maximize the accession, development, maintenance, 
enhancement, and employment of these critical skills appropriate to the 
Department of Defense's mission needs.'' What is the significance of 
identifying these skills as critical warfighting skills or competencies 
in terms of organizing, training, and equipping the force? Please 
identify the other critical warfighting skills or competencies. Are 
language skills and regional expertise now considered to be on par with 
those other skills and competencies?
    Admiral Holloway. Language, Regional Expertise, and Culture (LREC) 
skills identification allows for planning and inclusion of this skill 
set in future operational plans and training priorities. Navy considers 
LREC to be critical warfighting competencies in the execution of the 
Maritime Strategy and for Theater Security Cooperation efforts. 
However, these competencies are not required for every member of the 
service. Given the nature of these skills, training and equipping the 
force in all three LREC areas would require sizeable investments in 
resources and time, and would exceed Navy's needs. As indicated in our 
Language, Regional Expertise, and Culture Strategy, Navy's vision and 
end state for these skills is:

    <bullet>  Language fluency for some, but not all

    <bullet>  Regional expertise for some, but not all

    <bullet>  Cultural awareness for all

    To ensure LREC skills are appropriately prioritized and aligned 
with other critical warfighting skills, Navy has integrated LREC skills 
into the Navy Mission Essential Task List (NMETL) process. NMETs form 
the critical building blocks for Fleet training, aligning unit training 
tasks with essential Navy missions to support national strategy. NMETs 
have matured over the last several years, and have developed necessary 
specificity to assess training with appropriate conditions and 
standards. Language and cultural awareness proficiencies have been 
established as specific Navy Tactical Tasks, associated with 
appropriate Navy Mission Essential Tasks, with appropriate training 
being assigned to fulfill the task. This will make LREC skills 
essential, critical capabilities, aligned with appropriate Navy 
missions. NMETs have evolved over the last several years, and, by 
comparison, mission-essential language/cultural awareness tasks are 
relatively new. Though mission essential LREC tasks are still evolving, 
they will be integrated into Navy missions where they are most 
critically needed.
    To deliver required LREC training, Navy created the Center for 
Language, Regional Expertise, and Culture (CLREC) in Pensacola, 
Florida, and funds the Naval Postgraduate School's Regional Security 
Education Program which offers geographically relevant instruction to 
Navy strike groups underway. This training is augmented by Navy 
Professional Military Education (PME), which provides additional 
regional and cultural content. Additionally, the Naval Postgraduate 
School's Regional Security Education Program (RSEP) is an exceptional 
means for delivering tailored, regionally-focused education on 
political-military and culturally sensitive issues to deploying Naval 
forces.
    Language and regional expertise very much are on par with other 
critical warfighting skills and competencies, such as maritime 
security, sea control, logistics, and disaster response. For some 
occupations such as Foreign Area Officers, cryptolinguists, naval 
attaches, etc., language fluency and regional expertise are essential. 
For the majority of other Navy occupations, these skills are valuable 
but not absolutely necessary. Cultural awareness, however, is a 
required core competency for all.
    Dr. Snyder. Since we are planning to employ general purpose forces 
to carry out irregular warfare missions like building partner capacity, 
conducting counterinsurgencies and stability operations--missions that 
have been traditionally conducted by special operations forces--should 
we be looking at the way special operations forces acquire and maintain 
their language, regional, and cultural skills as a model for doing the 
same with the general purpose forces?
    Admiral Holloway. Yes, but only for training relevant to the 
specific mission of the General Purpose Force (GPF). For example, a 
Navy Expeditionary Combat Command unit will receive intensive cultural 
awareness and language familiarity instruction prior to deployments 
during which it will engage foreign nationals. Depending upon the 
mission assigned, other GPF within the Navy (e.g. individual officers 
and Sailors augmenting select ground forces overseas) also might 
benefit from this training model.
    For the majority of the Navy GPF, however, this model would deliver 
more Language, Regional Expertise, and Culture (LREC) immersion than 
required by their missions. It also would compete with time needed to 
train in other mission-essential and combat-related skills. For 
example, the crew of a deploying submarine is unlikely to need 
intensive language training, but it certainly would benefit from basic 
cultural awareness instruction prior to foreign engagement. To optimize 
resources and maximize the training benefit, instruction must be 
tailored to the specific mission of the GPF. Navy does not simply 
promote a ``one size fits all'' response to LREC requirements related 
to Irregular Warfare (IW) missions.
    To facilitate multiple levels of training, Navy established in 
February 2006 the Center for LREC (CLREC) at the Center for Information 
Dominance in Pensacola, Florida. CLREC provides pre-deployment training 
solutions in language and culture. This includes country studies on 
Navy Knowledge Online (NKO) and Mobile Training Teams (MTTs). CLREC 
also provides Cross-Cultural Competency and Language Familiarization 
material, which are self-paced instructional programs available via 
NKO.
    Dr. Snyder. Has the Language Roadmap or your Service's strategy for 
foreign language, cultural awareness and regional expertise changed the 
way you are recruiting, aside from the heritage speakers program? Would 
someone with foreign language skills be considered preferable to 
someone without them, all other things being equal? Are individuals 
with language skills placed on career paths or do they receive 
assignments that use those skills?
    Admiral Holloway. Both the Defense Language Transformation Roadmap 
and the Navy Language, Regional Expertise, and Culture (LREC) Strategy 
put a premium on screening for foreign language skills in new 
accessions (officer, enlisted and civilian), but beyond Navy's Heritage 
Recruiting Program, neither significantly altered the existing 
recruiting process. Navy's compulsory screening of military recruits at 
all officer and enlisted accession points has resulted in visibility 
into the depth and breadth of foreign language skills in the Navy. 
Similarly, voluntary declarations of language skills across the 
Department of Navy civilian workforce have added another layer of 
potential linguistic capability. The information gathered is forwarded 
to the Navy Foreign Language Office (OPNAV N13F) for inclusion in a 
data base for analysis.
    There is no preference for individuals with language skills except 
when recruiting to those billets that have specific language 
requirements. Under most circumstances, language is not a key factor in 
recruiting because the majority of Navy's annual recruiting requirement 
is for career fields with no language requirements. For example, the 
qualifications for a subsurface, surface, or aviation commission do not 
include language. On the other hand, foreign language would be viewed 
as a very positive attribute for a commission in naval intelligence or 
information warfare. In all cases, language ability is beneficial to 
the Navy, but it is of particular value in those occupations where it 
is likely be used.
    Upon verification of language proficiency, candidates who qualify 
are informed about occupational fields in which their skills would be 
of particular value. For example, an enlisted prospect with strong 
language ability--and who desires to use the language skill--may be 
advised of ratings such as Hospital Corpsman, Storekeeper, or Master-
at-Arms in which his or her linguistic skills are most likely to be 
exercised. It is important to note that in the vast majority of cases, 
Navy makes every attempt to place recruits into the career fields of 
their choosing. For example, a recruit with native Chinese language 
ability, but with extremely high math, science, and engineering skills, 
may opt for a highly technical occupation (such as advanced 
electronics) that does not require a language skill, but which is of 
equal value to the service.
    Dr. Snyder. We know that there are established means for assessing 
levels of foreign language proficiency. How will you measure and assess 
cultural awareness proficiency? Please provide examples.
    Admiral Holloway. Until standards and guidelines are 
institutionalized within the Department of Defense (DoD), measuring 
cultural awareness proficiency will remain highly subjective and 
dependent on the knowledge and experience level of the instructor 
providing the training. Cultural awareness and regional area content 
are integral to our service academies (Naval Academy, Senior Enlisted 
Academy), reserve officer training programs, officer career training 
schools, recruit basic training, and Professional Military Education. 
Navy has established a Center of Excellence (CE) in Pensacola, Florida 
to oversee and standardize training and impart essential and mission-
targeted cultural education to Sailors. The CE develops country and 
language familiarization packages and reviews Professional Military 
Education and Cultural and Regional Awareness Training for content. At 
the high end, the proficiency of Foreign Area Officers and other 
officers receiving in-resident instruction at war colleges is accounted 
for in degree transcripts.
    Navy continues to work to develop methods for assessment within the 
force while relying on the overall performance of maritime and 
humanitarian assistance operations as a barometer for the successful 
institutionalization of cultural awareness in Navy doctrine. Recent 
operations include humanitarian deployments of USNS MERCY and USNS 
COMFORT. When DoD institutionalized standards and methods are 
developed, Navy will move forward to implement them in order to more 
accurately measure proficiency levels.
    Dr. Snyder. Lower level language capabilities are being more fully 
incorporated into the general force, yet the current testing is 
designed for language professionals, who have higher level language 
capabilities. How do you plan to evaluate language training provided to 
the general purpose forces? What measures or tests will be used? What 
challenges are associated with evaluating language capabilities for the 
general purpose force?
    Admiral Holloway. The preferred method for testing foreign language 
proficiency within the Navy is the Defense Language Proficiency Test 
(DLPT) series of exams. When no DLPT exists for a particular language, 
the Defense Language Office (DLO) permits other types of tests on a 
case-by-case basis once they are certified for use by the Defense 
Language Institute Foreign Language Center (DLIFLC). Navy has made a 
great effort to ensure the DLPT series of exams is available to the 
force at Navy College Offices and testing centers both in the United 
States and abroad.
    An additional component of the DLPT tests is the Oral Proficiency 
Interview (OPI) used to assess fluency in speaking and to infer 
listening ability in those cases where a certified test does not exist. 
The OPI is administered verbally in the target language. It is dynamic 
by nature in that the testing official, using his or her subjective 
judgment, adjusts the level of test difficulty in order to evaluate the 
appropriate level of language proficiency to assign. OPIs must be 
coordinated through the DLIFLC in Monterey, California, which then 
schedules one-on-one telephone calls between the examinee and a 
qualified instructor. DLIFLC uses its own faculty for many of the 
tests, but contracts State Department's Foreign Service Institute (FSI) 
or the American Council for the Teaching of Foreign Languages (ACTFL) 
when required. Identifying qualified examiners--particularly in less 
commonly taught languages such as Akan, Twi, Baluchi--can be a problem. 
It also can prove difficult to coordinate a connection across multiple 
time-zones.
    Navy supports the current DLPT system, and in particular, the 
standards set by the latest revision, DLPT5. With that in mind, we 
remain open to other credible avenues for language proficiency 
evaluation in order to be ready to respond to the needs of our forward 
deployed operational forces.
    Dr. Snyder. Will a unit's readiness reporting include indicators 
reflecting its foreign language skills readiness and cultural awareness 
readiness?
    Admiral Holloway. In June 2007, Navy implemented a Mission 
Essential Task (MET) for cultural awareness. Execution and completion 
of this MET will be tracked via the Defense Readiness Reporting System, 
Navy (DRRS-N) and will be part of individual unit readiness reporting. 
Language skills readiness is only captured at the unit level for the 
small number of commands, predominantly in the Navy Special Warfare and 
Cryptologic communities, which have discrete language Navy Enlisted 
Classifications (NECs). This impact enters the Personnel Figure of 
Merit (PFOM) calculation used to inform the capability-based MET 
assessment. Additionally, Navy employs COGNOS, a business intelligence 
tool, to collate authoritative manpower and personnel data sources to 
monitor the pool of individuals with cultural awareness and foreign 
language skills.
    In the future, a unit's language readiness will be accessible 
through the Language Readiness Index functionality of the Defense 
Readiness Reporting System which currently is under development as part 
of the Defense Language Transformation Roadmap.
    Dr. Snyder. Is foreign language proficiency a consideration for 
promotion outside of the linguist or foreign area officer career paths? 
Wouldn't making some set level of foreign language ability a criterion 
for advancement to general or flag officer and senior non-commissioned 
officer create a pipeline for the future?
    Admiral Holloway. Foreign language proficiency currently is not a 
consideration for promotion outside of the linguist and Foreign Area 
Officer career paths. Precepts for promotion and selection boards do 
call out the value of foreign language or regional expertise acquired 
prior to or during a service member's career, and they emphasize the 
utility of those skills to the nation's Maritime Strategy.
    Foreign language ability clearly could be a valuable attribute in 
the overall skill set of Navy Flag Officers, but few Navy Flag Officer 
assignments require proficiency. The same is true for senior Non-
Commissioned Officers outside the cryptologic community. Mandating 
minimum foreign language proficiency levels for some or all of Navy's 
senior officers/enlisted force may yield greater aggregate linguistic 
capability for the force, but it would not create a pipeline or 
blueprint for future linguists.
    Navy has taken the following steps to infuse the officer corps with 
language skills:

    <bullet>  Current promotion board precepts recognize language 
skill, cultural knowledge, and overseas experiences as critical 
competencies.

    <bullet>  Navy Flag Officers en route duties overseas are offered 
language familiarity training and tutors.

    <bullet>  The U.S. Naval Academy now requires four semesters of 
language for non-technical majors. New majors in Chinese and Arabic for 
the Class of 2010 have been instituted.

    <bullet>  20-25 Naval ROTC Scholarships now are dedicated to 
Regional Studies/Language.

    <bullet>  In FY08 the Navy began purchasing 100 DLI Seats per year 
dedicated to non-FAO officer language training.

    Dr. Snyder. How are you focusing assignments for the new FAOs, 
RAOs, RAS, PAS, and other regional experts to gain return on the 
investment and continue to develop their skills--will they get lost in 
the personnel system?
    Admiral Holloway. In September 2006, Navy established a Foreign 
Area Officer (FAO) restricted line community. The community support 
structure and leadership includes a Community Manager who is charged 
with oversight of FAO selections, professional development, and 
tracking of individual officer utilization, plus a Detailer who 
monitors individual FAO career growth and assigns him or her to a 
billet that will support both the individual's career needs and the 
requirements of the Navy. This team of officers, backed by the Navy's 
recently established Foreign Language Office, closely monitors 
individual FAOs career progression to ensure they are not lost in the 
system.
    Once trained and designated a FAO, the officer can expect to have 
the following nominal career path in order to continue to develop his 
or her professional skills:

    <bullet>  First Assignment: Billet in the region/country of 
specialty requiring extensive use of recently acquired language skills 
and regional knowledge.

    <bullet>  Second Assignment: Staff or in country billet focused on 
the region of specialty. The billet will require extensive regional 
expertise, may not call for extensive language skills.

    <bullet>  Third Assignment: Billet in the region of specialty 
requiring use of language skills and extensive regional knowledge.

    Follow on assignments will vary depending upon the direction of the 
officer's career development and the needs of the Navy, and could 
include such diverse assignments as senior staff officer, attache, 
military assist group, etc. The assignment is expected to focus on the 
region of specialty.
    Dr. Snyder. The Chairman's Language and Regional Expertise Planning 
Instruction, CJCSI 3126.01, states that ``[l]anguage skills and 
regional expertise are critical `warfighting skills' that are integral 
to joint operations.'' Similarly, DOD Directive 3126.01 states: ``[i]t 
is DOD policy that: . . . Foreign language and regional expertise be 
considered critical competencies essential to the DoD mission and shall 
be managed to maximize the accession, development, maintenance, 
enhancement, and employment of these critical skills appropriate to the 
Department of Defense's mission needs.'' What is the significance of 
identifying these skills as critical warfighting skills or competencies 
in terms of organizing, training, and equipping the force? Please 
identify the other critical warfighting skills or competencies. Are 
language skills and regional expertise now considered to be on par with 
those other skills and competencies?
    General Lake. The significance of identifying language and cultural 
skills as critical competencies was essential in bringing about 
foundational transformation in the Department of Defense. By placing 
this statement in policy, it clearly informed DoD planners that they 
must consider these skills as they determine how to meet the post-9/11 
challenges faced by the DoD today. The Defense Language Program has 
often cited this policy statement during drafting of doctrine, 
organization, training, materiel, leadership and education, personnel, 
and facilities (DOTMLPF) needed to conduct Irregular Warfare. As such, 
language and culture are recognized as critical warfighting 
competencies and embedded into longstanding DoD policy.
    Today's operations increasingly require our forces to operate with 
coalition and alliance partners and interact with foreign populations 
in a variety of regions, with diverse languages and cultures. Given the 
focus on regional populations rather than opposing organized military 
forces, language and culture emerge as key enablers for success. 
Lessons learned have proven that appropriate foreign language skills 
and cultural awareness lead to fewer combat actions and reduced impact 
on the local populace. This in turn enhances good will which directly 
benefits forces engaged in Irregular Warfare operations.
    The 34th Commandant of the Marine Corps, in his The Long War 
concept has identified four foundations of Marine Corps operations. 
These are

    <bullet>  Leadership and Professionalism

    <bullet>  Maneuver Warfare

    <bullet>  Task Organized, Combined Arms Capable, Multi-purpose 
Marines

    <bullet>  Cultural Awareness

    Marines who are culturally and linguistically adept provide a 
significant force enabler to the Combatant Commander. Failure to 
understand the critical importance of culture and language in 
establishing and maintaining foreign relationships can significantly 
hamper Irregular Warfare efforts. To instill greater cultural awareness 
across the Marine Corps and build the linguistic capabilities of 
individual Marines, emphasis has been placed on culture and language 
training through mandatory pre-deployment training. Like the other 
critical warfighting skills, language and culture skills are assessed 
during the capstone Mission Rehearsal Exercises prior to deployment. 
Required pre-deployment training and assessment highlight the 
importance of ensuring units have these critical warfighting skills 
prior to operational deployment to the respective areas of operation.
    Dr. Snyder. Since we are planning to employ general purpose forces 
to carry out irregular warfare missions like building partner capacity, 
conducting counterinsurgencies and stability operations--missions that 
have been traditionally conducted by special operations forces--should 
we be looking at the way special operations forces acquire and maintain 
their language, regional, and cultural skills as a model for doing the 
same with the general purpose forces?
    General Lake. Areas of deployment are one of the main differences 
between Special Operations Forces and General Purpose Forces. As a 
general rule, Special Operations Forces operate in specified regions of 
the world while General Purpose Forces can be deployed globally at any 
time. Unlike the ``traditional'' warfighting skills, language, regional 
and cultural training can only be conducted once the region of 
deployment is determined. Lessons learned from regionally-focused 
Special Operations Forces can be carried over to the General Purpose 
Forces to enhance lesson plans for potential deployments.
    The Marine Corps does not currently assign geographic regions to 
operating force units. However, recognizing that Special Operations 
Command (SOCOM) has a tremendously successful program for language and 
culture training, we maintain a working level relationship with the 
SOCOM Language Office (SOFLO) in addition to the other service, DoD and 
US Gov agencies that provide and coordinate language and cultural 
training. Given that, it is important to understand that Marine Corps 
general purpose forces are not required to maintain language 
proficiency levels of that of SOCOM forces, nor that of personnel 
designated to maintain proficiency in a foreign language. The Marine 
Corps will continue to leverage other agency methods and models to 
improve the training curricula for language and cultural skills. As 
briefed during the hearing on 10 September 2008, the Marine Corps 
Career Marine Regional Studies program is applicable to the career 
force of Marines, both active and reserve, as is the current model of 
training and educating the total career force of Marines in regional 
cultural expertise and language skills.
    Dr. Snyder. Has the Language Roadmap or your Service's strategy for 
foreign language, cultural awareness and regional expertise changed the 
way you are recruiting, aside from the heritage speakers program? Would 
someone with foreign language skills be considered preferable to 
someone without them, all other things being equal? Are individuals 
with language skills placed on career paths or do they receive 
assignments that use those skills?
    General Lake. The Marine Corps welcomes officer candidates that 
possess foreign language skills; however, it is not a requirement or a 
determinate factor in receiving a commission. In an effort to increase 
the number of accessions assigned to the DC/E8 Cryptolinguist program, 
our Recruiting Command increased the enlistment incentive bonus from 
$4,000 in FY07 to $15,000 in FY08; the FY09 bonus will increase to 
$25,000, the highest bonus of all programs that we offer. In FY07, we 
recruited 232 individuals under the DC/E6 ($4,000) program; so far this 
year we have recruited 217 individuals under the DC/E8 ($15,000) 
program. We have also enlisted 82 more DD (intelligence) personnel in 
FY08 compared to FY07.
    Recruiters are trained to ask if the applicant speaks or writes a 
foreign language (self-professed; no proof or testing required) and 
capture that result on the DD1966 Block 13 with 1st and 2nd language 
(using DoD Language Codes). Marine Corps recruiters have no way to 
gauge foreign language proficiency, therefore applicants who admit to a 
self-professed foreign language skill are not considered preferable 
when applying to enlist. On officer applicants, providing proof of 
proficiency, i.e. college course study, transcripts, degree, etc., is 
considered a positive attribute during the selection process.
    Enlisted Marines who obtain a primary MOS requiring a foreign 
language (26XX) are placed on specific career paths to use their 
language skills. Enlisted Marines may also obtain an additional 
language skill designator if they qualify, but are not assigned 
language-required billets. The intent for these Marines is to provide 
interpreter capability to units.
    Dr. Snyder. We know that there are established means for assessing 
levels of foreign language proficiency. How will you measure and assess 
cultural awareness proficiency? Please provide examples.
    General Lake. We are in the initial stages of developing the 
process to measure and assess cultural awareness proficiency as part of 
a larger effort to define the need for regional and cultural competence 
in sufficient detail to provide personnel with the mission-critical 
knowledge and skills they need to meet mission requirements. We are 
working on the five action items listed in our October 2007 White 
Paper, DoD Regional and Cultural Capabilities--The Way Ahead, that 
ensure we have a coordinated and comprehensive approach to integrate 
regional and cultural competencies all the other competencies needed in 
the Total Force.
    The five action items are: 1) Build a DoD Regional and Cultural 
Capabilities Strategic Plan; 2) Establish common terminology and a 
typology for identifying, developing, measuring, and managing regional 
and cultural capabilities; 3) Define and prioritize the Department's 
strategic and operational demands for regional and cultural 
capabilities; 4) Operationalize the Department's regional and cultural 
needs; 5) Partner with the public and private sectors in solutions.
    The Marine Corps looks forward to future DoD-developed cultural 
awareness proficiency measurement and assessment policy. Until then, 
the Marine Corps will continue to adhere to Service-level cultural 
awareness and language proficiency pre-deployment assessment criteria 
and conduct assessments during the Mission Rehearsal Exercises prior to 
operational deployment. As Marine units take part in operational 
scenarios and navigate the ``lanes'' of the Mission Rehearsal Exercise, 
the Center for Advanced Operational Cultural Learning (CAOCL) evaluates 
individual Marines and the unit on six culture and communication skill 
areas. As an example, unit leaders are evaluated on Key Leadership 
Engagement, with points of observation such as `frequency of 
engagement', `greetings and pleasantries', and the `conduct of 
meetings'. These skills and assessment areas are tailored to the 
culture of the region to which the unit will be deployed. Other 
evaluated topics include Communication, Managing Perceptions, Cultural 
Respect, Understanding Human Terrain and Use of an Interpreter. This 
Service-level assessment ensures warfighters possess the region-
specific culture and language skills to maximize the full potential of 
Marines prosecuting joint missions.
    Dr. Snyder. Lower level language capabilities are being more fully 
incorporated into the general force, yet the current testing is 
designed for language professionals, who have higher level language 
capabilities. How do you plan to evaluate language training provided to 
the general purpose forces? What measures or tests will be used? What 
challenges are associated with evaluating language capabilities for the 
general purpose force?
    General Lake. There is no minimum standard for language proficiency 
in the general purpose forces (GPF). The language training that is 
being provided for the GPF is introductory training and/or survival 
level skills.
    There is, however, a small percentage of the GPF (20 Marines per 
year) that receive comprehensive training via the Defense Language 
Institute (DLI) as a reenlistment incentive. As with all graduates of 
DLI, those Marines are tested with the Defense Language Proficiency 
Test (DLPT).
    All Marines who self profess a foreign language capability are 
encouraged to take the DLPT. According to DLI, the DLPT 5, the current 
DoD test of record for most languages, is not an accurate evaluation 
mechanism for Interagency Language Roundtable (ILR) sub 2 levels. For 
those Marines that believe they are sub 2, we encourage the Oral 
Proficiency Interview (OPI) as a means to accurately identify their 
skill level. Additionally, USSOCOM is currently working with OUSD to 
develop tests that accurately evaluate the lower levels of proficiency 
(ILR sub 2) and increase the availability of OPIs for ILR sub 2/2 
service members. As those efforts mature, the Marine Corps will look to 
leverage those tests.
    As an incentive to involve more Marines in language training, the 
Director of Intelligence, in his capacity as Senior Language Authority 
(SLA), updated the Marine Corps order on Foreign Language Proficiency 
Pay (FLPP) to include payment of tested language skills for all MOSs. 
Prior to this, only Marines in the Intel and Foreign Area Officer (FAO) 
MOSs were authorized FLPP. Additionally, we are now paying GWOT 
languages at the Interagency Language Roundtable (ILR) 1/1 level rather 
than at the previous minimum of 2/2. As we continue to achieve goals 
outlined in the DoD Language Transformation Roadmap and to emphasize 
regional and language expertise within our general purpose forces, we 
expect increasing numbers of Marines to gain with language capabilities 
for which they will rate FLPP. Additionally, language learning is now 
required within certain ROTC and Service Academy programs. Most of the 
officers who successfully complete these programs test at a minimum 1/1 
level in GWOT languages, rendering them eligible for FLPP.
    With the upcoming implementation of other culture and language 
initiatives such as the Career Marine Regional Studies program and the 
uploading of Rosetta Stone onto Marine Net, we expect additional 
Marines to test and gain eligibility for FLPP.
    Dr. Snyder. Will a unit's readiness reporting include indicators 
reflecting its foreign language skills readiness and cultural awareness 
readiness?
    General Lake. No. The present readiness reporting system of record, 
the Global Status of Resources and Training System (GSORTS), does not 
contain indicators for those. The Defense Readiness Reporting System 
(DRRS), which is under development, does not have indicators that would 
summarize a unit's readiness in those areas either. DRRS will have the 
ability to drill down into a unit's personnel records to find data on 
personnel with foreign language skills, but there is nothing for 
cultural awareness. DRRS will gather its personnel foreign language 
skill data from Service authoritative data sources. Presently, the 
pulls from those authoritative data sources are not: web enabled, 
validated, or tested.
    Dr. Snyder. Is foreign language proficiency a consideration for 
promotion outside of the linguist or foreign area officer career paths? 
Wouldn't making some set level of foreign language ability a criterion 
for advancement to general or flag officer and senior non-commissioned 
officer create a pipeline for the future?
    General Lake. No. The best and most qualified Marine Officers are 
selected for promotion regardless of MOS or language skills. It would 
be a mistake to make a set level of foreign language capability a 
requirement for GO/SNCO.
    More requirements or restrictions would limit the eligible 
populations to be considered for selection. Furthermore, setting a 
foreign language skill requirement for promotion would require all 
officers be afforded the chance to meet the requirement. We would be 
mandated to provide time off to every single officer in order to both 
learn and maintain a foreign language, which would negatively impact 
time needed for other vital skills.
    Dr. Snyder. How are you focusing assignments for the new FAOs, 
RAOs, RAS, PAS, and other regional experts to gain return on the 
investment and continue to develop their skills--will they get lost in 
the personnel system?
    General Lake. The careers of Marine FAOs/RAOs are closely managed 
to ensure a balance of operational time in their primary MOSs with 
utilization tours in assignments that maximize a return on their FAO/
RAO skills and progressively expand their expertise. Ideally, a FAO/RAO 
will serve as an attache or Security Assistance Officer as an O-4/O-5, 
then, after a tour back in the operating forces, as the J-5/G-5 in a 
COCOM or Marine Component Command (MARFOR) as an O-6. There are, of 
course, many possible variations to this paradigm, but the idea of FAO/
RAO billets increasing in responsibility and scope with increased rank 
and experience is key to continued development.
    Furthermore, when serving operational tours in their primary MOSs, 
every effort is made to ensure that FAOs/RAOs are assigned to units 
with an operational orientation toward their region of expertise. In 
this way, their FAO/RAO skills can be leveraged by Marine Expeditionary 
Force (MEF) commanders even when they are not serving in a FAO/RAO 
billet.
    Finally, various pilot programs to ensure skill sustainment for 
FAOs/RAOs, especially when they are not serving in a FAO/RAO billet, 
are under development to ensure those skills do not atrophy.
    Dr. Snyder. The Chairman's Language and Regional Expertise Planning 
Instruction, CJCSI 3126.01, states that ``[l]anguage skills and 
regional expertise are critical `warfighting skills' that are integral 
to joint operations.'' Similarly, DOD Directive 3126.01 states: ``[i]t 
is DOD policy that: . . . Foreign language and regional expertise be 
considered critical competencies essential to the DoD mission and shall 
be managed to maximize the accession, development, maintenance, 
enhancement, and employment of these critical skills appropriate to the 
Department of Defense's mission needs.'' What is the significance of 
identifying these skills as critical warfighting skills or competencies 
in terms of organizing, training, and equipping the force? Please 
identify the other critical warfighting skills or competencies. Are 
language skills and regional expertise now considered to be on par with 
those other skills and competencies?
    General Patton. Identification of language and regional expertise 
as critical skills is the bedrock of transformational efforts. It 
ensures that the lessons learned from our current engagements are not 
lost and imbeds within the strategic guidance.
    DOD guidance directs its components to increase foreign language 
skills and cultural capability by identifying and training personnel 
with high aptitude for learning foreign languages, as well as military 
personnel who conduct irregular warfare, perform stability operations, 
work with coalition partners or are involved in training and advising 
missions.
    The Joint Staff has worked to incorporate language and regional 
expertise into an OSD strategic guidance and the Joint Strategic 
Capabilities Plan (JSCP), published in March 2008. The guidance 
provides strategic planning guidance and identifies foreign language 
for U.S. forces and English skills for allies as being important to 
security cooperation and campaign planning. It also reinforces the 
importance of language skills and regional expertise in regard to 
general purpose forces (GPF) and special operations forces (SOF). The 
JSCP implements this guidance and requires commanders to identify and 
prioritize language and regional expertise requirements critical to 
successful execution of their plans. In response to this guidance we 
expect that the combatant commands will identify increased requirements 
for language and culture as they plan for future engagements.
    Critical warfighting skills vary by career field, unit type and 
mission. Language skills are critical warfighting competencies for 
intelligence, special operations forces and Foreign Area Officers, but 
they are enabling skills for others. A foreign language capability is 
not essential for aircraft repair or bridge construction, but it could 
enable communication, particularly for those service members involved 
in stability operations, negotiations or training and advising 
missions.
    Dr. Snyder. Since we are planning to employ general purpose forces 
to carry out irregular warfare missions like building partner capacity, 
conducting counterinsurgencies and stability operations--missions that 
have been traditionally conducted by special operations forces--should 
we be looking at the way special operations forces acquire and maintain 
their language, regional, and cultural skills as a model for doing the 
same with the general purpose forces?
    General Patton. The Joint Operating Concept (JOC) for Irregular 
Warfare (IW) signed by Secretary Gates in September 2007, states that 
executing IW campaigns will increasingly require the GPF to perform 
missions that in the last few decades have been primarily special 
operations forces activities. Language and regional expertise have 
traditionally been critical skills for special operations forces, but 
to engage in IW GPF personnel will need cultural and language training 
for the operational areas to which they will deploy. It is envisioned 
that these forces will be able to communicate the strategic message and 
that increased interaction abroad is an opportunity to gain area 
familiarization and gather useful information about potential 
operational areas. Building partnership capacity will require the GPF 
to have a greater degree of language and cultural instruction.
    It is essential that we maintain some balance between the need to 
expand IW mission capability and while ensuring that GPF remain 
prepared for the full spectrum of warfare. Special Forces model for all 
GPF could jeopardize other critical training time needed to ensure 
competency in traditional and non-traditional roles. This issue 
requires additional study.
    Dr. Snyder. Has the Language Roadmap or your Service's strategy for 
foreign language, cultural awareness and regional expertise changed the 
way you are recruiting, aside from the heritage speakers program? Would 
someone with foreign language skills be considered preferable to 
someone without them, all other things being equal? Are individuals 
with language skills placed on career paths or do they receive 
assignments that use those skills?
    General Patton. The Services continue to recruit based on their 
manpower requirements. The Defense Language Transformation Roadmap 
hasn't changed recruiting, but it has led to identification of self-
professed language capability when recruits are assessed. I defer to 
the Services to make any additional comments.
    Dr. Snyder. We know that there are established means for assessing 
levels of foreign language proficiency. How will you measure and assess 
cultural awareness proficiency? Please provide examples.
    General Patton. OSD published regional proficiency skill level 
guidelines in DOD Instruction 5160.70 and the Joint Staff has published 
military planning guidance for regional expertise levels in the CJCSI 
3126.01, ``Language and Regional Expertise Planning''. OSD has begun 
addressing how to measure and assess cultural awareness proficiency. 
The Joint Staff will participate with the Services and OSD on this 
effort and coordinate with combatant commands as needed.
    Dr. Snyder. Lower level language capabilities are being more fully 
incorporated into the general force, yet the current testing is 
designed for language professionals, who have higher level language 
capabilities. How do you plan to evaluate language training provided to 
the general purpose forces? What measures or tests will be used? What 
challenges are associated with evaluating language capabilities for the 
general purpose force?
    General Patton. The Defense Language Proficiency (DLPT) 5 and the 
Oral Proficiency Interview (OPI) are the two currently available 
testing methodologies. DLPT5s are available either in a lower-range 
test that gives scores from 0+ to 3 on the Interagency Language 
Roundtable (ILR) scale, or in an upper-range test that gives scores 
from 3 to 4 on the ILR. Some languages have only a lower-range test; 
some have only an upper-range test; and some have both. The OPI usually 
differentiates listening and speaking skills up to level 2 on the ILR. 
When addressing lower level testing for general purpose forces the 
large number of people to be tested poses one challenge. Determining 
the best content and methodology are two other challenges. This is an 
issue that must be addressed in the next phase of language 
transformation.
    Dr. Snyder. Will a unit's readiness reporting include indicators 
reflecting its foreign language skills readiness and cultural awareness 
readiness?
    General Patton. The Department readiness reporting systems 
currently have the capability of assessing language skill readiness, 
but only if the unit has a designed language requirement. Unit 
reporting in the Global Status of Resources and Training (GSORTS) 
measures the personnel, equipment and training readiness of a unit. If 
a unit has a language requirement deemed a critical skill, the unit's 
language status would be captured in GSORTS metrics (or commander 
comments to the report). If there is no specified requirement, language 
is not considered a readiness metric.
    Language and cultural awareness readiness for general purpose force 
units is difficult to measure until the unit's mission and destination 
are known. Once they know where they are going, the unit can refine 
training and readiness assessments in accordance with the operational 
area.
    As the Department migrates to OSD's Defense Readiness Reporting 
System (DRRS), the Language Readiness Index (LRI) which is integrated 
into DRRS will be able to pull personnel data for each unit from 
Service authoritative data sources. Data will include unit members by 
name and language skills (if any). The combination of DRRS and LRI will 
enable assessment of a unit's language readiness as well as a Services-
wide search for specific language capability. LRI will also be used to 
compare regional expertise requirements with a unit's capability.
    Dr. Snyder. Is foreign language proficiency a consideration for 
promotion outside of the linguist or foreign area officer career paths? 
Wouldn't making some set level of foreign language ability a criterion 
for advancement to general or flag officer and senior non-commissioned 
officer create a pipeline for the future?
    General Patton. The Deputy Secretary of Defense asked the 
Departments to review promotion board precepts to ensure that language 
and cultural awareness are valued attributes. This will particularly 
help shape the future senior officer corps. Officers pay close 
attention to what is expected of them and those who aspire to the 
higher grades will ensure that they develop the right skills.
    The Services have expanded both the availability of foreign 
language education and opportunities for immersion at their academies. 
They have also added established language requirements for graduation. 
These changes will shape the future senior leaders.
    The Joint Staff has made cultural awareness a Joint Professional 
Military Education (PME) requirement for Primary, Intermediate and 
Senior levels of education and published appropriate policy. A soon to 
be published update to Enlisted PME Policy includes a greater focus on 
cultural awareness in the E-6 and above courses. These PME standards 
will also shape the skills of senior officer and enlisted leaders.
    While relatively few general officer or flag officer assignments 
require language expertise, we are shaping the pool of future senior 
leaders.
    Dr. Snyder. What are DOD's plans for developing Phase II of the 
Roadmap (The Way Forward)? To what extent will this Phase II 
incorporate key elements of strategic planning, such as strategic goals 
and implementation tasks based on a needs analysis, linkage of these 
goals and tasks to funding, and metrics to assess progress?
    General Patton. OSD is leading the development of goals, objectives 
and tasks for Phase II of the Roadmap. One issue that we must address 
is linking requirements identified in plans to how the Services build 
language capacity. Another important issue is addressing the need to 
test language skills at the lower levels. The Joint Staff is working 
collaboratively with other members of the Defense Language Steering 
Committee in developing the way ahead. OSD expects to have the plan 
completed by Spring 2009.
    Dr. Snyder. Shouldn't certain positions, like combatant commanders, 
their staffs, and Joint Staff positions, require some foreign language 
skills and regional expertise? Who, today, in those organizations would 
typically be required to have those kinds of skills and background?
    General Patton. Select combatant command and Joint Staff positions 
do require regional expertise. Today, there are Foreign Area Officers 
(FAOs) within the combatant commands and on the Joint Staff. These 
officers provide professional level language and regional expertise 
skills. We currently have 28 FAO billets on the Joint Staff. They are 
utilized primarily for their regional expertise in the Strategic Plans 
and Policy Directorate. This total doesn't include the J-2 whose report 
is sent through DIA. Recognizing the value that FAOs bring to the 
strategic environment, the combatant commands are increasing their 
requirements for FAOs. In FY 07 there were a total of 294 FAO positions 
in the combatant commands; this total is projected to grow by 21 
percent over the FYDP to 357 billets.
    Senior leadership should also have some level of regional expertise 
wherever they are assigned. Looking at the broader context of 
qualifications for general and flag officers, effective 1 October 2008, 
designation as a joint qualified officer became an active duty 
requirement for promotion to flag or general officer. To earn that 
qualification, an officer must have completed both phases of Joint 
Professional Military Education (JPME) and have a joint duty 
assignment.
    JPME policy requires completion of specific learning objectives 
that ensure senior officers understand key cultural differences and 
their implications for interacting with people from a culture. JPME 
expects leaders to be able to apply an analytical framework that 
incorporates the role that factors such as geopolitics, geostrategy, 
society, culture and religion play in shaping the desired outcomes of 
policies, strategies and campaigns in the joint, interagency, and 
multinational arena.
    Officers who want to be competitive know that they must complete 
JPME. These requirements will shape the pool of senior officers, while 
not restricting the pool of officers eligible to fill joint billets. 
Foreign language skills are not critical to most combatant command 
billets, Leadership ability and experience are paramount, while 
language skills would be value added.
    Dr. Snyder. The Chairman's Language and Regional Expertise Planning 
Instruction, CJCSI 3126.01, states that ``[l]anguage skills and 
regional expertise are critical `warfighting skills' that are integral 
to joint operations.'' Similarly, DOD Directive 3126.01 states: ``[i]t 
is DOD policy that: . . . Foreign language and regional expertise be 
considered critical competencies essential to the DoD mission and shall 
be managed to maximize the accession, development, maintenance, 
enhancement, and employment of these critical skills appropriate to the 
Department of Defense's mission needs.'' What is the significance of 
identifying these skills as critical warfighting skills or competencies 
in terms of organizing, training, and equipping the force? Please 
identify the other critical warfighting skills or competencies. Are 
language skills and regional expertise now considered to be on par with 
those other skills and competencies?
    Mrs. McGinn. The DoD Directive you are referencing is DoDD 
5160.41E, not DoDD 3126.01. The publication of DoD Directive 5160.41E, 
Defense Language Program, in October 2005, was a landmark update of 
defense language policy that had not been updated since 1988. To my 
knowledge, this is the first time that the Department identified 
foreign language and regional expertise as skills critical to our DoD 
missions, and it was an essential first step in our overall 
transformation. The language in the Directive was broadly agreed to in 
the Department and reinforced in the deliberations and publication of 
the Quadrennial Defense Review and subsequent policy documents. Other 
critical competencies are determined by the Military Departments in 
consideration of their individual mission requirements.
    The significance of identifying language and cultural skills as 
critical competencies has been reflected in the initiation and 
subsequent growth of the 09L interpreter/translator program in the 
Army; heritage recruiting programs initiated by the other Departments; 
increased language instruction for officers pre-accession; growth of 
language translation and interpretation technology; broad expansion of 
pre-deployment training; incorporation of regional, cultural, and some 
language training into professional military education; and the 
improvements in foreign language proficiency pay to incentivize 
language learning and sustainment. It is also reflected in the 
groundbreaking action to conduct a self-assessment to determine 
potential language capability in the force, through which we have 
identified over 217,200 members who profess to have proficiency in a 
language of strategic interest to the Department. The growth of our 
joint Foreign Area Officer programs is also reflective of the 
acknowledgement of the strategic importance of these skills.
    Dr. Snyder. Since we are planning to employ general purpose forces 
to carry out irregular warfare missions like building partner capacity, 
conducting counterinsurgencies and stability operations--missions that 
have been traditionally conducted by special operations forces--should 
we be looking at the way special operations forces acquire and maintain 
their language, regional, and cultural skills as a model for doing the 
same with the general purpose forces?
    Mrs. McGinn. While there are lessons to be learned from the special 
operations approach, area of deployment is one of the main differences 
between Special Operations Forces and General Purpose Forces. As a 
general rule, Special Operations Forces operate in a specified region 
of the world, whereas General Purpose Forces could potentially be 
deployed anywhere in the world at a moment's notice. Unlike 
``traditional'' war fighting skills, language, regional, and cultural 
training for these forces need to be completed after the area of 
deployment is determined. One of the transformational changes reflected 
in Department of Defense Directive 5160.41E requires as policy that 
``military units deploying to, or in transit through, foreign 
territories shall be equipped, to the greatest extent practicable, with 
an appropriate capability to communicate in the languages of the 
territories of deployment or transit.'' We have created pre-deployment 
materials and deployed mobile training teams through the Defense 
Language Institute Foreign Language Center. The Military Services have 
also established tailored pre-deployment training. The Special 
Operations Command Senior Language Authority participates in the 
Defense Language Steering Committee and is part of our deliberations on 
foreign language needs. Through that forum, we can discover lessons 
learned from the Special Operations Forces to help inform future 
efforts for the General Purpose Forces.
    Dr. Snyder. Has the Language Roadmap or your Service's strategy for 
foreign language, cultural awareness and regional expertise changed the 
way you are recruiting, aside from the heritage speakers program? Would 
someone with foreign language skills be considered preferable to 
someone without them, all other things being equal? Are individuals 
with language skills placed on career paths or do they receive 
assignments that use those skills?
    Mrs. McGinn. All Services continue to recruit to their 
requirements. However, the Defense Language Transformation Roadmap has 
affected the processes employed. For example, the Services now screen 
newly accessed personnel for language skills. These are entered into 
the Defense Manpower Data Center database for tracking purposes. The 
Defense Language Aptitude Battery is more widely used to determine 
which recruits have the aptitude to learn the more difficult languages. 
Officers, especially, are now more likely to enter service with 
language skills due to the improved course offerings in their 
commissioning programs. This provides opportunities for individuals to 
leverage skills while in the performance of their core duties and 
perhaps position themselves for admission into the Services' Foreign 
Area Officer programs.
    Individuals recruited for language skills are normally recruited 
for the specialties that require those skills, such as cryptologic 
linguists. These specialties have clear career paths and personnel who 
qualify (attain the necessary language proficiency) serve in specific 
unit manning document positions. These Service members are trained in 
the language at Department of Defense schools, and then moved to their 
units of assignment to begin their duties and increase their skill 
levels to professional level.
    Dr. Snyder. We know that there are established means for assessing 
levels of foreign language proficiency. How will you measure and assess 
cultural awareness proficiency? Please provide examples.
    Mrs. McGinn. We are in the initial stages of developing the process 
to measure and assess cultural proficiency. This is a part of a larger 
effort to define the need for regional and cultural competence in 
sufficient detail to provide personnel with the mission-critical 
knowledge and skills they need to meet mission requirements. We are 
working on the five action items listed in our October 2007 White 
Paper, ``DoD Regional and Cultural Capabilities--The Way Ahead,'' that 
are designed to ensure we have a coordinated and comprehensive approach 
to integrate regional and cultural competencies into all the other 
competencies needed in the Total Force.
    The five action items are: 1) Build a Department of Defense (DoD) 
Regional and Cultural Capabilities Strategic Plan; 2) establish common 
terminology and a typology for identifying, developing, measuring, and 
managing regional and cultural capabilities; 3) Define and prioritize 
the Department's strategic and operational demands for regional and 
cultural capabilities; 4) Operationalize the Department's regional and 
cultural needs; and, 5) Partner with the public and private sectors in 
solutions.
    In September of this year, we conducted a cross-cultural roundtable 
discussion that included experts from business and academia. This 
roundtable addressed the second and the fifth goals of the White Paper. 
The roundtable provided the forum for the presentation, discussion, and 
debate on the issues surrounding cross-cultural and inter-cultural 
communications. The roundtable provided an opportunity for participants 
to exchange ideas and best practices and identify potential areas of 
cooperation that will help us move from theory to practice.
    The roundtable was a multi-disciplinary partnership between 
government, academia, and the private sector and sought to further our 
understanding of cross-cultural communication in a globalized world. 
The roundtable included three working groups who presented information 
and their insights on what constitutes cross-cultural communication, 
why it is important in today's world, and how best to lay the 
foundation for building, sustaining, and training cross-cultural 
competency. The discussions that followed each presentation were rich 
with personal insights and experiences, candid comments, and lively 
exchanges with a solid balance of theoreticians and practitioners. We 
met the roundtable objectives, but we know that we still have a long 
road ahead of us. This cross-sector discussion has been an important 
first step. The Department is going to continue this comprehensive and 
cooperative joining of government, academia, and the private sector to 
guarantee future successes. Defining cross-cultural communication is a 
new discipline for academia as well as for DoD and we recognize that 
more work needs to be done and will continue this collaboration.
    In February of this year, we formed the Defense Regional and 
Cultural Capabilities Assessment Working Group to address, in detail, 
the second goal of the White Paper. Three sub-working groups are 
looking at how to:

    1.  Develop definitions and terms of reference for language 
capabilities, regional capabilities (both global and culture-specific 
competencies), and cultural capabilities (to include country, region, 
and transformational).

    2.  Develop global cross-cultural developmental and assessment 
models for all military and civilians that identify cross-cultural 
competencies at key accession points and leadership/management levels; 
and develop a set of macro-learning objectives for these cross-cultural 
competencies that are aligned with official DoD definitions for 
language, regional, and cultural capabilities; and

    3.  Develop a professional development and assessment model for 
Defense-wide area ``area specialists,'' e.g., Foreign Area Officers, 
Intelligence and Language Analysts, etc., that provides a flexible, 
multi-disciplinary, systematic framework for identifying, assessing, 
and tracking area specialists in support of a mission-driven, 
enterprise-wide human capital management process.

    The working groups are making progress and will provide updates to 
the Defense Language Steering Committee.
    Dr. Snyder. Lower level language capabilities are being more fully 
incorporated into the general force, yet the current testing is 
designed for language professionals, who have higher level language 
capabilities. How do you plan to evaluate language training provided to 
the general purpose forces? What measures or tests will be used? What 
challenges are associated with evaluating language capabilities for the 
general purpose force?
    Mrs. McGinn. Appropriate end-of-course tests are developed for the 
courses of training that Service members currently attend. The Services 
are also developing performance-based tests for follow-on assessment at 
the lower skill levels. The Defense Language Institute Foreign Language 
Center is working on an Oral Proficiency Interview (computerized) that 
will be used to test proficiency at the lower skill levels. As Service 
members increase their language proficiency, they will be able to take 
the standard language proficiency tests. Language training in the 
General Purpose Forces must be relevant to the unit mission, the tasks 
Service members must perform, and the conditions under which they will 
perform them. The broad range of unit missions in the General Purpose 
Forces continues to make pertinent language training evaluation 
challenging.
    Dr. Snyder. Will a unit's readiness reporting include indicators 
reflecting its foreign language skills readiness and cultural awareness 
readiness?
    Mrs. McGinn. Some units' readiness might include indicators 
reflecting its foreign language readiness. Although cultural awareness 
is provided to all personnel prior to deployment, it is not currently 
reported as part of a unit's readiness. With language and culture 
identified as key capabilities, we must be able to identify, capture, 
and document the language and culture capabilities of the Total Force 
and match those against the requirements to determine risk. It is 
imperative to know what resources are available and have the ability to 
match them against Department of Defense (DoD) Agencies, Combatant 
Commands, and the Services requirements quickly and precisely. The 
Language Readiness Index (LRI) is a tool created to measure the percent 
of operational and contingency needs that can be met with the projected 
inventory.
    The LRI is a direct result of the Defense Language Transformation 
Roadmap and will provide a wide array of management information to key 
personnel within the DoD Agencies, Combatant Commands, and the 
Services. It is not an assignment tool, rather it is designed to 
identify potential shortfalls in language capability so decision makers 
can assess risk and take appropriate action. The governing instructions 
for the LRI are contained in DoD Instruction 5160.70, ``Management of 
DoD Language and Regional Proficiency Capabilities,'' and in the 
Chairman of the Joint Chiefs of Staff Instruction 3126.01, ``Language 
and Regional Expertise Planning.'' Future spirals will include civilian 
data, a Cultural and Regional Awareness Module placeholder, a strategic 
plan on how to add language sources other than the military into the 
application, and new management reports. Additionally, it will be able 
to run various ``what if '' scenarios against plans to determine 
language capability gaps.
    We have created the LRI as an application in the Defense Readiness 
Reporting System (DRRS). DRRS is the Department's single readiness 
reporting system and will be able to track detailed information on 
forces, down to the individual level, and provide accurate, 
authoritative data. When complete, DRRS will consist of a network of 
applications, including the LRI, that provide force managers at all 
levels with the tools and information and ability to identify the gaps 
and assess the risks of conducting operations.
    Linking the LRI to DRRS ensures an integrated and synchronized 
approach to assessing Defense readiness across the Department.
    Dr. Snyder. Is foreign language proficiency a consideration for 
promotion outside of the linguist or foreign area officer career paths? 
Wouldn't making some set level of foreign language ability a criterion 
for advancement to general or flag officer and senior non-commissioned 
officer create a pipeline for the future?
    Mrs. McGinn. The Defense Language Transformation Roadmap tasked the 
Military Departments to make foreign language ability a criterion for 
general officer/flag officer advancement. To help accomplish this, the 
Deputy Secretary of Defense published promotion board guidance for the 
Secretaries of the Military Departments. The guidance requests that the 
Military Departments review and revise promotion board precepts to 
ensure that language and cultural awareness, among other issues, 
receive the right degree of emphasis.
    To ensure a future pool of officers with these skills, each of the 
Service Academies has established foreign language course requirements, 
as outlined in my testimony. Senior Reserve Officers' Training Corps 
programs also encourage enrollment in foreign language programs. This 
will lead to a broader pool of officers with foreign language skills 
for promotion and assignment considerations.
    For the enlisted force, our recruits most often graduate from our 
nation's public schools, which often do not include a mandate for 
foreign language study for high school graduation. The work we are 
doing with our Federal partners to improve and expand foreign language 
education in our nation's schools is an attempt to broaden the base of 
foreign language competency in our forces.
    Dr. Snyder. What are DOD's plans for developing Phase II of the 
Roadmap (The Way Forward)? To what extent will this Phase II 
incorporate key elements of strategic planning, such as strategic goals 
and implementation tasks based on a needs analysis, linkage of these 
goals and tasks to funding, and metrics to assess progress?
    Mrs. McGinn. As with the development of the original Defense 
Language Transformation Roadmap, our planning efforts for ``Phase II'' 
have begun with an understanding of our current environment through the 
validation or adjustment of the original Roadmap assumptions and goals. 
The resulting new or revised assumptions and goals will identify the 
tasks required to continue progress toward building language, culture, 
and regional proficiency capability in the Department. As with the 
current Roadmap, they will also form the basis for future budget 
requests. Metrics will be set to assess progress, as appropriate.
    Dr. Snyder. Shouldn't certain positions, like combatant commanders, 
their staffs, and Joint Staff positions, require some foreign language 
skills and regional expertise? Who, today, in those organizations would 
typically be required to have those kinds of skills and background?
    Mrs. McGinn. The Joint Staff and the Combatant Commands (COCOMs) 
have Foreign Area Officer (FAO) billets, which require foreign language 
and regional expertise skills. FAOs are assigned as political-military 
officers, country/regional desk officers, liaison officers, and 
security assistance officers at the Joint Staff and COCOMs. According 
to the Fiscal Year (FY) 2007 Department of Defense Annual FAO Report, 
the COCOMs and Joint Staff have a total of 322 FAO billets, with 273 of 
those filled. Over the Future Years Defense Program, FAO billets will 
increase 20 percent, to 385 billets by FY 2014.
    In addition to their FAO personnel, the Air Force and Marine Corps 
have commissioned officers that have regional expertise but no foreign 
language skill. They are called political-military affairs strategists 
and regional affairs officers, respectively. These officers are 
assigned to the COCOMs and Service Component Commands and provide 
critical capability to the operating forces.

                                  <all>

</pre></body></html>
